<html>
<title> - WATER AND ENERGY USE EFFICIENCY</title>
<body><pre>[Senate Hearing 112-564]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 112-564

                    WATER AND ENERGY USE EFFICIENCY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   TO

 EXAMINE THE ROLE OF WATER USE EFFICIENCY AND ITS IMPACT ON ENERGY USE

                               __________

                             JULY 25, 2012






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-232 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                JEANNE SHAHEEN, New Hampshire, Chairman

RON WYDEN, Oregon                    MIKE LEE, Utah, Ranking
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           DANIEL COATS, Indiana
BERNARD SANDERS, Vermont             JOHN HOEVEN, North Dakota
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bena, Daniel W., Senior Director, Sustainable Development, 
  PepsiCo, Inc., Purchase, NY....................................     9
Chaney, GP Russ, CEO, International Association of Plumbing and 
  Mechanical Officials, Ontario, CA..............................    13
Dickinson, Mary Ann, President/CEO, Alliance for Water 
  Efficiency, Chicago, IL........................................    18
Green, Henry L., AIA, President, National Institute of Building 
  Sciences.......................................................     3
Lee, Hon. Mike, U.S. Senator From Utah...........................     2
Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     1

                               Appendix I

Responses to additional questions................................    35

                              Appendix II

Additional material submitted for the record.....................    47

 
                    WATER AND ENERGY USE EFFICIENCY

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen presiding.

OPENING STATEMENT OF HON. JEANNE SHAHEEN, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone.
    Welcome, to our panelists.
    I am a little embarrassed that we are talking efficiency 
today, and it is freezing in this room. It is a challenge that 
I have throughout the capitol complex. So, hopefully, as the 
result of all of our efficiency discussions, we will be more 
efficient on the way we use air conditioning and heat in this 
building.
    But, I want to welcome all of you. Thank you for those of 
you attending this afternoon's hearing. We are here to discuss 
water use efficiency, as it relates to energy consumption.
    We live in a world of constrained water supplies, with over 
60 percent of counties across the country facing drought as we 
speak today. The topic of water efficiency is a timely and 
urgent issue and one that really demands immediate attention.
    Water and energy are interconnected in many ways. 
Electricity generation requires substantial amounts of water, 
and pumping and treating water requires electricity. Within the 
context of efficiency, this water and energy nexus is perhaps 
most easily understood by the principle that every drop of 
water saved in the U.S. conserves energy, and every unit of 
energy saved conserves water.
    But, despite this clear link, efforts to improve efficient 
water and energy use have traditionally been handled 
separately. However, as we will hear today, there is 
substantial evidence to show that there is a need to unify 
these efforts into a more collaborative and comprehensive 
framework.
    For example, in one of the only detailed analyses completed 
to date addressing the energy-water nexus, the California 
Energy Commission found that nearly 20 percent of the State's 
electricity and 30 percent of their natural gas consumption is 
used to move, treat, and heat water.
    Further, inefficiencies in our Nation's infrastructure 
emphasize the need to update and improve water delivery 
systems. In fact, according to the National Institute of 
Building Sciences, nearly 60 percent of electricity and 20 
percent of water are lost before water is delivered.
    Today's hearing will provide us with an opportunity to 
better understand water efficiency and how different techniques 
and strategies have been deployed across various sectors of our 
economy to save water. For example, typical water-efficient 
technologies are being incorporated in plumbing fixtures and 
fittings, residential appliances like washing machines and 
dishwashers, and wastewater treatment and water filtration 
systems. Codes and standards also play a significant role in 
the world of water efficiency. Building codes represent an 
important foundation for implementing programs and policies 
that encourage efficiency.
    Together, these emerging technologies and codes and 
standards are helping to make great improvements in our efforts 
to conserve water and energy.
    The private sector is really leading the way in this arena, 
finding that it is in their best interest to save water, not 
only because it helps their bottom line by saving costs, but 
also because consumers want more sustainable products.
    Finally, I am looking forward to hearing from our panelists 
about what they see as the barriers that currently exist to 
more fully deploying water-efficient techniques and 
technologies.
    I am very pleased to welcome today's witnesses. Our panel 
includes: Mr. Henry Green, the President of the National 
Institute of Building Sciences; Mr. Daniel Bena, who is the 
Senior Director at PepsiCo; Mr. Russ Chaney, CEO of IAPMO 
Group; and Mary Ann Dickinson, President and CEO of the 
Alliance for Water Efficiency.
    I look forward to hearing all of your testimony, and we 
will recognize Ranking Member of the Water and Power 
Subcommittee, Senator Lee, for his opening comments, before we 
go to your testimony.
    Senator Lee.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Senator Shaheen, and I also want to 
thank our witnesses who have joined us today. I look forward to 
hearing your different perspectives on how we can use our 
efforts to promote water use efficiency to also promote 
efficiency in energy use.
    Senator Shaheen has outlined very well how water and energy 
are inextricably connected. I am encouraged that our committee 
continues to look at how these two things are connected.
    Although the allocation of water is a State-driven process, 
through the years, the Federal Government has been involved in 
the development of various measures to reduce water and energy 
use. The Committee has considered ideas in the past that have 
helped reduce the amount of energy to produce water, as well as 
ways to reduce the amount of water needed to produce energy.
    The reliable development of water and energy constitutes 
something of a backbone of our economy. Safe, reliable, and 
cost-effective supplies of water and the energy cost of 
producing, treating, and cleaning the water will continue to be 
a critical driver for all sectors of our economy, including 
agriculture, industry, and the domestic sector.
    In my State, in the State of Utah, energy production and 
water efficiency certainly go hand-in-hand. I believe this 
Committee can assist State and local governments with ideas as 
to how to more efficiently manage the connection between energy 
and water.
    I encourage our witnesses today to think outside the box on 
different options, to help expand our understanding of how 
water and energy are connected.
    In addition, I look forward to hearing their perspectives 
on the role that local, State, and Federal entities can play in 
helping consumers reduce both water and energy use.
    I would also like our witnesses to discuss the role that 
industry has played in developing technologies that have 
already reduced our water use, which, as I understand it, has 
led to the greatest reduction of energy use within the 
commercial, industrial, and even the domestic sector.
    Again, I look forward to hearing what our witnesses, Mr. 
Green, Mr. Bena, Mr. Chaney, and Ms. Dickinson, have to say 
about these issues here today, each of which is very important.
    I am going to have to step out in a few minutes. I 
apologize for that, but with your permission, Senator Shaheen, 
I will submit those in writing.
    Senator Shaheen. Thank you very much, Senator Lee.
    Mr. Green, we will begin with you.

STATEMENT OF HENRY L. GREEN, AIA, PRESIDENT, NATIONAL INSTITUTE 
                      OF BUILDING SCIENCES

    Mr. Green. Thank you very much, Chairman Shaheen, and 
Ranking Member Lee, and the members of this committee. Thank 
you for the opportunity to testify today.
    I am Henry Green and I am President of the National 
Institute of Building Sciences. The Institute was established 
in 1974 to serve as an authoritative source to make findings 
and advise the public and private sector on the use on building 
sciences and technology.
    The buildings are responsible today for about 40 percent of 
the Nation's primary energy use. Three-quarters of the 
electricity produced is consumed in the building sector, 
representing over $300 billion in expenditures. While these 
numbers alone are staggering, they do not reveal the associated 
impact on water resources. According to the U.S. GS, electrical 
energy is responsible for almost half of the Nation's water 
withdrawals. Reduction in water use can also result in 
decreased energy demand.
    The California Energy Admission found that pumping and 
treating drinking water and wastewater represents 19 percent of 
the State's electricity load. Consumer water heating represents 
32 percent of its gas load. Few other States have done this 
kind of analysis, and no such national research exists today.
    More comprehensive building water use data is vital to the 
continued improvement of water management in buildings. EIA's 
Commercial Building Energy Consumption Survey and the 
Residential Energy Consumption Survey provide a long record of 
energy use, but no such resource exists for water use. While 
CBECS and RECS are not perfect and have recently suffered 
funding issues, they remain valuable resources in monitoring 
the progress of energy efficiency programs.
    Further information is lacking on the end use of water in 
commercial buildings. To advance plumbing codes and information 
development of water resource programs and pipe-sizing 
methodologies, researchers, manufacturers, and utilities, with 
Government support, should research and implement advanced 
metering and sub-metering technologies. Policymakers should 
provide leadership and direction in the development and support 
of research programs. The establishment of science-based 
metrics will allow a better understanding of how to best 
achieve energy and water use efficiencies.
    Benchmarking of energy use by commercial building owners 
has grown considerably. However, tools and recognition 
opportunities do not exist relative to water use. The lack of 
data for water use by building type and end use likely 
underlies the slow emergence of such programs.
    Surprisingly, many water utilities still charge flat rates, 
even in water-scarce areas. Construction codes and standards, 
State and local governments must require increased use of water 
metering. Installing meters and billing according to usage has 
been shown to be the single most effective water conservation 
measure a water utility can initiate.
    Currently, there are no Federal agency that has the mandate 
or ability to adequately consider all of the high-performance 
building attributes and support the numerous goals placed on 
the building community. Just for green buildings, which include 
elements of water and energy efficiency, GAO identified 94 
initiatives in 11 agencies. A cross-agency working group on 
building-related issues to develop holistic strategies for 
achieving national goals would be an incredible value.
    Water delivery infrastructure provides unique challenges 
that are not completely understood. Continued flow reductions 
may place the health and safety of occupants and the efficacy 
of plumbing systems at risk. Researchers need to better 
understand water use in buildings to balance the need for 
energy and water efficiency, while maintaining residual 
pressures for safety and performance concerns.
    EPA's WaterSense program is an essential element of water-
focused benchmarking initiatives, but it focuses solely on 
individual products. Such a focus does not assure water-
efficient buildings. Increased funding for the WaterSense 
program can help facilitate the development of a comprehensive 
WaterSense program for buildings.
    Many institutional building owners have relied on ESCOs for 
them to determine how, in fact, they can save energy in their 
buildings. No such program exists today with respect to water 
usage.
    The obsession of using potable water for nearly all 
applications may not be suitable; however, no Federal 
regulation governs water quality or permissible utilization of 
non-potable water.
    In conclusion, there may be a national research program 
focused on understanding the complex relationships between 
energy and water, including production, infrastructure, 
training, and funding. Consistency of approach, appreciation of 
value, and mandates are essential to ensuring the water-energy 
nexus is better understood and future decisions are made with 
an appreciation for the balance between energy and water 
considerations.
    Thank you for this opportunity to testify today.
    [The prepared statement of Mr. Green follows:]

    Prepared Statement of Henry L. Green, AIA, President, National 
                     Institute of Building Sciences
    Chairwoman Shaheen, Ranking Member Lee, and members of the 
Subcommittee, thank you for the opportunity to provide testimony on 
water efficiency, buildings, and the connection between water and 
energy.
    The National Institute of Building Sciences (Institute) was 
established by Congress in 1974 upon recognition of a lack of an 
authoritative national source to make findings and to advise both the 
public and private sectors on the use of building sciences and 
technology to achieve recognized goals (12 USC 1701j-2).
    To achieve its mission to support advances in building science and 
technology to improve the built environment, the Institute has 
established a diverse portfolio of councils and programs that engage 
building industry experts in examining and developing tools, 
technologies and practices to meet identified needs. This testimony 
reflects the diversity of water-related issues identified by many of 
our councils, from the Multihazard Mitigation Council and Sustainable 
Buildings Industry Council to the Consultative Council.
Water and Energy Use in Buildings
    As defined by Congress in the Energy Independence and Security Act 
of 2007 (EISA), a high performance building ``integrates and optimizes 
on a life cycle basis all major high performance attributes, including 
energy conservation, environment, safety, security, durability, 
accessibility, costbenefit, productivity, sustainability, 
functionality, and operational considerations.'' While water is not 
explicitly mentioned, it is an essential consideration in many of these 
attributes.
    It is becoming increasingly obvious that water, like energy, will 
serve as a fundamental focus of building related policies. Recent 
drought conditions nationwide, including those in Texas and Georgia, 
water shortage declarations in Kentucky and fire prone landscapes 
across the country demonstrate the growing need to focus on how we use 
water. The Environmental Protection Agency reports that 36 states 
expect to experience local, regional or statewide water shortages by 
2013.\1\ Just last week, the National Climatic Data Center reported 
that the nation is experiencing the largest drought since the 1950s. In 
June, about 55 percent of the country was in at least a moderate short-
term drought-the highest level since December 1956-and at least 70 
percent of the nation is in some state of drought.
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency (EPA), Water Supply and 
Use in the United States (2008).
---------------------------------------------------------------------------
    Americans use more water in the home than in any other country in 
the world, except Canada. Going forward, the U.S. Census Bureau expects 
the greatest percentage of regional population growth in areas of the 
country where water resources already are stressed. As will be 
demonstrated by my testimony and the testimony of others, a holistic 
focus on opportunities to use both water and energy efficiently will 
provide an economically efficient opportunity to use our resources 
wisely.
    As you may know, buildings are responsible for approximately 40 
percent of the primary energy use in the United States.\2\ Almost three 
quarters of the electricity produced in the U.S. is consumed in the 
building sector and represents over $300 billion in expenditures.\3\ 
While these numbers alone are staggering, they do not reveal the 
associated impact on water resources. According to the U.S. Geological 
Survey, the generation of electricity is responsible for almost half of 
the nation's water withdrawals.\4\ This equates to about 23 gallons per 
kilowatt hour generated. Therefore, any energy use avoided results in 
less water use.
---------------------------------------------------------------------------
    \2\ Building Energy Data Book, http://
buildingsdatabook.eren.doe.gov/, Table 1.1.3
    \3\ Building Energy Data Book, http://
buildingsdatabook.eren.doe.gov/, Table 1.1.9
    \4\ Kenny, J.F., Barber, N.L., Hutson, S.S., Linsey, K.S., 
Lovelace, J.K., and Maupin, M.A., 2009, Estimated use of water in the 
United States in 2005: U.S. Geological Survey Circular 1344, 52 p.
---------------------------------------------------------------------------
    In addition, reductions in water use can result in decreased energy 
demand. Energy is consumed in the conveyance of water from the source 
to the point of treatment, the treatment process itself, the 
distribution of water to the point of use, the heating of water during 
use, and the wastewater treatment process. The California Energy 
Commission found that 19 percent of the state's electric energy load 
comes from the pumping and treatment of drinking water and wastewater, 
and 32 percent of its gas load is related to the heating of water by 
consumers. However, few other states have done this analysis, and there 
has been no national research into this important area. These values 
reveal the huge potential to achieve significant energy savings through 
improved water efficiency measures.
    Data and research on water use in the building sector is lacking 
and requires a focus at several scales of magnitude. While we have a 
long history of energy use data for the building stock in general, from 
programs like the Energy Information Administration's Commercial 
Building Energy Consumption Survey (CBECS) and the Residential Energy 
Consumption Survey (RECS), no such resource exists for water use. While 
CBECS and RECS are not perfect and have recently suffered from funding 
issues, they remain a valuable resource in monitoring the progress of 
energy efficiency programs, facilitating changes in codes and 
standards, and establishing national goals. The need for more 
comprehensive building water use data is vital to the continued 
improvement of water management in buildings across the country. The 
next version of CBECS will include new data on water use, but more data 
and research is needed.
    In addition to the need for water usage data for the building stock 
as a whole, water use benchmark data by distinct building types do not 
exist. Establishment of such a dataset could result in development of 
comprehensive benchmark data that supplies a general range of ``water 
use intensity'' values represented as gallons per square foot. Water 
use intensity values can be used within codes and standards to develop 
performance-based standards, by water utilities to identify large and 
inefficient users, by water auditors to develop water management 
strategies, and by federal and local governments to craft water use 
policies. This benchmark data also would provide a means to compare the 
water use of one building against another to determine a relative level 
of water efficiency.
    Further, there is a lack of information on the end uses of water in 
commercial buildings and very little research has been conducted on the 
topic. Thus, while the aggregate usage data that can be obtained by 
traditional metering of various building types is important and will 
result in significant water savings, the proper sizing of plumbing 
systems and the implementation of other water efficiency strategies 
requires a greater understanding of the use patterns associated with 
discrete fixtures, appliances and equipment. Such research would 
monitor, in real-time, water consuming equipment and processes in 
commercial buildings, such as plumbing fixtures; commercial kitchen 
equipment; irrigation; laboratory/medical equipment; heating, 
ventilation and air conditioning (HVAC) systems; and ornamental 
fountains. This data could be examined to understand patterns in water 
end use and to support development of metrics that provide benchmarks 
on water end uses for distinct building types. To advance plumbing 
codes and inform development of water efficiency programs and proper 
pipe sizing methodologies, researchers, manufacturers, and utilities 
(with governmental support) should research and implement advanced 
metering and sub-metering technologies that can provide greater insight 
into how water is used in various building types. Building owners, 
designers, operations and maintenance staff, policymakers, and codes 
and standards developers could utilize such information to more 
accurately estimate water use by building type and the potential 
savings of efficiency opportunities.
    As a first step to development of a water use benchmark and 
resulting opportunities to reduce water use, construction codes and 
standards must require increased use of water meters in all building 
types. This is especially true for multi-family residential buildings 
where residents currently lack financial incentive to repair or replace 
leaky pipes, plumbing fixtures and appliances. In addition, requiring 
water meters for specific use applications within a building will 
provide building facility managers with an effective water efficiency 
feedback mechanism. These include: makeup water to cooling towers, 
evaporative condensers, larger evaporative coolers, fluid coolers, 
large boilers, and makeup water supplies to swimming pools.
    Given the value of water to the viability and resilience of 
communities, the construction community calls on this committee, 
Congress at large, and the Administration to provide leadership and 
direction towards the development and support of research programs that 
will advance the establishment of accepted science-based metrics and 
allow better understanding of how to best achieve energy and water use 
efficiencies in buildings.
Challenges in Reducing Water and Energy Use
    Currently, no federal agency has the mandate or the ability to 
adequately consider all high-performance building attributes and 
support the numerous goals placed upon the building community. 
Considering just green building programs (which include elements of 
water and energy efficiency), the Government Accountability Office 
identified 94 initiatives housed in 11 agencies.\5\ Opportunities to 
increase collaboration across all building issues and within each 
individual issue area are necessary. A cross-agency working-group on 
building-related issues that could develop holistic strategies for 
achieving national goals would be incredibly valuable.
---------------------------------------------------------------------------
    \5\ GAO-12-79, Green Building: Federal Initiatives for the 
Nonfederal Sector Could Benefit from More Interagency Collaboration, 
November 2011
---------------------------------------------------------------------------
    Unlike the somewhat straightforward nature of the energy delivery 
infrastructure, water delivery infrastructure provides unique 
challenges that are not completely understood. While net-zero energy 
use does not generally impact the safety inherent in existing delivery 
infrastructure, net-zero water efforts require careful consideration. 
Existing water infrastructure and plumbing is based on historic flow 
rates. Decisions to implement some water efficiency strategies that 
reduce water consumption levels without fully understanding the 
systemic implications of reducing flows in water supply pipes and 
sanitary systems can result in unintended consequences.
    Continued flow reductions on both water supply and sanitary drain 
systems, without fully understanding the implications of these flow 
reductions, place the health and safety of occupants and the efficacy 
of plumbing systems at risk. Researchers need to better understand 
water use in buildings to properly size water pipes to balance the 
needs for energy and water efficiency with the need to maintain 
residual pressures for safety and other performance concerns.
    While many water purveyors have fully metered systems, many water 
agencies surprisingly still charge customers flat rates, even in water-
scarce regions of the United States. State and local governments must 
immediately begin to require that all buildings be metered for water 
use, at the gross building level at a minimum, but, ideally, sub-
metered for all significant water uses within the building. Installing 
meters and billing according to usage has been shown to be the single 
most effective water conservation measure a water utility can initiate. 
As recently measured by utilities, unmetered water consumption is 
reduced 15 percent to 30 percent when utilities implement metering and 
commodity rates.\6\
---------------------------------------------------------------------------
    \6\ The Alliance for Water Efficiency--2011
---------------------------------------------------------------------------
    Benchmarking of energy use by commercial building owners has grown 
considerably through the development of the Environmental Protection 
Agency's EnergyStar for Buildings Program and its Portfolio Manager 
Tool; the passage of rating and disclosure requirements in cities like 
Seattle, New York, Washington DC, and Philadelphia; and recognition 
programs such as ASHRAE's Building Energy Quotient, Building Owners and 
Managers Association 360 program, the U.S. Green Building Council's 
Leadership in Energy and Environmental Design (LEED) and the Green 
Building Initiative's Green Globes Program. Similar tools and 
recognition opportunities do not exist relative to water use. The lack 
of benchmarking data for water use by building type and end use likely 
underlies the slow emergence of such programs.
    Many institutional building owners, including governments, 
universities and hospitals, have been working with energy service 
companies (ESCOs) to implement and finance energy efficiency 
improvements where costs are paid through the resultant energy savings. 
Few programs of this type exist to finance water efficiency 
improvements. Many private companies may be unwilling to enter this 
market because of the lack of benchmark data and an ability to 
understand how potential upgrades will ultimately affect water savings 
and the associated cost savings. Further, the diversity of pricing 
structures for water and the relatively low cost may not make such 
efforts economically viable.
    The lack of a national policy or plan for addressing water related 
issues has kept the need and opportunity in the background. Without a 
holistic view of our nation's water needs, policymakers at all levels 
of government will have difficulty making appropriate and responsive 
decisions. The Institute's Consultative Council has recommended that 
the federal government prioritize, coordinate, and support development 
of a national water strategy prior to the emergence of inevitable water 
shortages.
    EPA's WaterSense program is an essential element of the development 
of a water focused benchmarking initiative, but focuses solely on 
individual pieces of equipment and not the use of water throughout a 
building. Increased funding for the WaterSense program can help to 
facilitate increased product coverage and potential development of a 
WaterSense for Buildings Program.
    WaterSense designations only exist for a few product types. 
Existing rating systems like LEED and Green Globes only require 
efficient plumbing fixtures and do not consider all other indoor water 
consuming equipment in buildings, such as commercial kitchen equipment, 
cooling towers and water-consuming medical equipment, as well as non-
critical functions, such as ornamental fountains. These partial 
requirements on their own do not assure water-efficient buildings 
because no benchmark data exists upon which to generate accurate and 
defensible performance-based goals. Green building programs in general 
provide specification criteria without providing the ``how-to'' 
information on effective implementation and integration within 
buildings. Codes and standards developers and professional 
organizations work to fill this gap. Model code developers have already 
developed comprehensive ``green'' building or plumbing codes that, 
while prescriptive in nature, do address commercial and institutional 
applications. Ensuring cooperation across these organizations and their 
criteria can help realize the achievement of water efficient buildings.
    Education and training on the connection between energy and water 
and the opportunities to reduce their use is essential to achieving 
national goals in these areas. Specific audiences include operations 
and maintenance personnel, architects and engineers, state and local 
building departments, policymakers and building occupants. Buildings 
have a complex life cycle, from concept, design and construction to 
commissioning, occupancy, modification/renovation and deconstruction. 
Education and training within the building professions must reflect 
this complexity, including the specific skill needs at each point in 
the building's life cycle. These lifecycle considerations include 
efficient use of energy and water through reduced waste and demand 
management, improved occupant comfort and health, and upgrading the 
human-building system interface. In each time period within the 
building's life cycle, particular segments of the building community 
must be engaged and have the requisite knowledge to adequately address 
the unique needs within that time period.
    While the Institute focuses primarily on the built environment, we 
recognize that buildings do not exist in isolation; they rely on 
connections to other sectors of the economy. Such connections include 
utilities, finance and manufacturing. Understanding these connections 
is essential to the design, construction and operation of buildings, so 
I will focus some of my testimony on illuminating these connections.
    Efficiency and conservation methods within buildings should 
continue to be employed in construction designs. However, the backbone 
of the nation's electrical and water delivery systems also needs 
significant repair and improvement. With nearly 60 percent of 
electricity and 20 percent of water being lost before it ever enters 
service, significant savings will not be realized until the delivery 
systems become more efficient and waste is reduced. Aging supply lines 
need to be replaced to ensure proper delivery of both potable water and 
water for fire protection. Ten percent of the nation's water 
distribution system is over 80 years old and 30 percent is between 40 
and 80 years old. Nearly 2 trillion gallons of water is lost annually 
through leaks in water pipes. This annual loss equates to an estimated 
$1 to $2 billion. Aside from the cost implications, it is estimated 
that a five percent reduction in water distribution system leakage 
would save 313 million kWh of electricity and avoid approximately 
225,000 metric tons of CO<INF>2</INF> emissions annually.\7\ The 
American Society of Civil Engineers, in a 2009 report, gave the U.S. 
drinking water and wastewater system a D-. The electrical 
infrastructure faired only slightly better by earning a D+. Both 
systems require significant investments in technology and distribution 
systems simply to maintain their current service, let alone to keep up 
with growing demands.
---------------------------------------------------------------------------
    \7\ The Carbon Footprint of Water, Bevan Griffiths-Sattenspiel and 
Wendy Wilson (2009).
---------------------------------------------------------------------------
    According to Congressional Budget Office estimates from 2002, it 
will take $335 billion over the next 20 years to repair and update 
water distribution systems and an additional $300 billion to do the 
same for sewer systems. The process of repairing the nation's crumbling 
infrastructure can create tens of thousands of long-term American jobs. 
The United States Conference of Mayors estimates that every job created 
through rebuilding water systems creates more than 3.6 jobs elsewhere 
and every dollar invested in water infrastructure adds $6.35 to the 
national economy.
    In an era of constrained water supplies, the very conservative 
approach in the United States of using potable water for nearly all 
applications may not be sustainable. Reusing lightly contaminated 
graywater collected onsite reduces the quantity of potable water 
consumed by the facility as non-potable supplies replace potable 
supplies. Additionally, sewer systems receive less water. The same 
occurs for reclaimed/recycled water, where a portion of the wastewater 
generated by entire communities is collected, treated and returned to 
facilities for non-potable reuse. This reduces the influent collected 
for treatment to potable water standards and also reduces the effluent 
discharged to the environment. Treatment of non-potable water also is 
less energy-intensive than treatment to potable water standards. 
Rainwater harvesting also offsets potable water consumption and has the 
added benefit of reducing the quantity of stormwater needing onsite 
management.
    Interest in the use of non-potable water for various applications 
has surged in recent years, driven in part by the emergence of new 
stretch codes and standards, as well as the recognition that water is a 
finite resource. Numerous applications are available, including water 
closet and urinal flushing, cooling tower makeup, automatic fire 
suppression systems, landscape irrigation and fountains. Non-potable 
water may include rainwater, graywater, reclaimed water and non-potable 
water from various other alternative sources. Currently, however, there 
are no federal regulations governing water quality or permissible 
utilizations for non-potable water. In 2004, the Environmental 
Protection Agency released EPA/625/R-04/108, Guidelines for Water 
Reuse. While that document is instructive, it is not binding. The 
Guidelines for Water Reuse is currently undergoing an update intended 
to further streamline it and incorporate the latest findings. The 
update is slated for completion by October 2012. The regulations on how 
non-potable water can be used in applications inside and outside of 
buildings are highly variable throughout the nation. Many states do not 
even have such regulations. The lack of uniform regulations is 
currently the greatest impediment to more wide-spread use of non-
potable water in buildings and on building sites.
    Thermal insulation is routinely used to improve the thermal 
efficiency of hot water delivery systems. Although specific 
requirements vary, all major building energy codes currently require 
some pipe insulation on domestic hot water (DHW) piping. DHW piping 
insulation requirements have been based on the energy savings 
associated with reduced heat loss from piping systems. However, thermal 
insulation also helps conserve water by reducing the time it takes from 
the initial demand for water (turning on the tap) until the water is 
delivered to the demand point at the required temperature. A study is 
needed to quantify the potential energy and water savings associated 
with increasing the use of pipe insulation.
    In conclusion, there must be a national research program directed 
to understand the complex relationship between energy and water, 
including production, infrastructure, training and funding. Consistency 
of approach, consistency of appreciation of value and consistency of 
mandates are essential elements to ensuring the water / energy nexus is 
better understood and future decisions are made with an appreciation 
for the balance between energy and water considerations.
    As the entity charged by Congress to provide an authoritative 
source for findings and advice to the public and private sector on the 
use of building science and technology to achieve national goals, the 
Institute is pleased to offer its expertise to the Subcommittee, 
Congress at-large and federal agencies.

    Senator Shaheen. Thank you very much.
    Mr. Bena.

   STATEMENT OF DANIEL W. BENA, SENIOR DIRECTOR, SUSTAINABLE 
            DEVELOPMENT, PEPSICO, INC., PURCHASE, NY

    Mr. Bena. Thank you Chairwoman Shaheen, Ranking Member Lee, 
and other distinguished members and guests. I appreciate the 
opportunity to speak to you on behalf of PepsiCo and our 
environmental sustainability efforts, particularly as they 
relate to strengthening water use efficiencies.
    My name is Dan Bena and I am the Senior Director of 
Sustainable Development for PepsiCo, a global food and beverage 
leader with net revenues of more than $65 billion and nearly 
300,000 associates worldwide, including more than 100,000 of 
whom are employed in the United States.
    PepsiCo employees are united around a principle known as 
``performance with purpose'', a shared commitment to 
sustainable growth through investments in a healthier future 
for both people and our planet.
    We have made several public commitments around 
environmental sustainability based on the principle of 
performance with purpose. Particularly germane to this hearing 
is the progress we have made in water conservation. By the end 
of 2011, 4 years early, we exceeded our system-wide goal to 
improve water use efficiency by 20 percent per unit of 
production by 2015.
    This success and the strategies driving it have been 
recognized across the globe. For example, earlier this year, 
PepsiCo received the U.S. Water Prize from the Clean Water 
America Alliance, and next month, are proud to be the recipient 
of Stockholm Industry Water Award.
    We have also improved our energy use efficiency by 8.2 
percent from a 2006 baseline. These efficiencies represent a 
savings of almost $32 million for 2011 and correspond to 
approximately 1.5 million megawatt hours of thermal of electric 
energy reductions, enough energy to supply nearly 100,000 U.S. 
homes for a year.
    One of the ways we continue to achieve these results is 
through the broad-scale deployment of what we call ReCon, 
Resource Conservation, an innovative system used to improve 
energy and water use efficiency in our manufacturing 
facilities. The ReCon process involves auditing our energy and 
water use streams within the plant, assigning relative values 
to each, and then focusing in on what can be improved, using 
best practices employed throughout PepsiCo.
    It is also important to mention that over the last 8 years, 
PepsiCo's partnership and relationship with the U.S. EPA ENERGY 
STAR program has been very strong. We have been recognized as 
partner of the year in energy management in 2007 and partner of 
the year in sustained excellence in 2008, 2009, 2010, 2011, and 
2012.
    Our energy management program has, in fact, been 
highlighted in the U.S. EPA's public service announcement, as 
saving $179 million, 20 trillion BTUs, and eliminating 3 
billion pounds of carbon dioxide since 1999.
    Recognition is wonderful, but collaboration is crucial to 
resolving the magnitude of the global crises we face today. In 
this context, I cite the progress of the Beverage Industry 
Environmental Roundtable, a voluntary technical coalition of 
leading global beverage companies.
    Over the 3-year period, from 2008 to 2010, the industry 
aggregate water use ration improved by 9 percent, avoiding the 
use of approximately 39 billion liters of water in 2010. That 
is enough water to supply the entire population of New York 
City for 8 straight days.
    However, water and energy use in our food and beverage 
facilities is only a small part of the water and energy 
picture. Agriculture, in fact, represents 70 percent of water 
use globally, 30 percent of the world's greenhouse gas 
emissions, and 40 percent of worldwide employment. To improve 
resource use in agriculture not only has a significant, 
positive impact on our environment, but is critical to 
PepsiCo's business.
    One way PepsiCo is positively impacting resource use is 
through irrigation. Evolving our irrigation methods, from flood 
irrigation to pivot to drip can conserve in excess of 70 
percent of on-farm water use. We are also piloting innovative 
technologies, such as those developed with Cambridge and 
Columbia Universities, which have the potential to conserve 
billions of gallons of water in agriculture. We have automated 
the direct seeding of rice process, growing a staple food crop, 
using 20 percent less water and 70 percent fewer greenhouse gas 
emissions.
    With specific regard to the nexus of water and energy, I 
close by sharing the example of our journey to near net zero: 
running a facility primarily on renewable energy resources and 
recycled water, while producing nearly zero waste. Using 
innovative technologies, our Casa Grande, Arizona facility is 
generating two-thirds of all energy used from renewable sources 
and is working toward the goals of 75 percent of the water to 
be recycled, 50 percent reduction in greenhouse gas emissions, 
and an 80 percent reduction in the use of natural gas. These 
results are not the product of imposed regulation; they are the 
result of understanding the nexus between business value and 
social performance.
    Again, I appreciate the opportunity to be here, and thank 
Chairwoman Shaheen and Ranking Member Lee for allowing us to 
share PepsiCo's perspectives on its environmental 
sustainability efforts.
    [The prepared statement of Mr. Bena follows:]

Statement of Daniel W. Bena, Senior Director, Sustainable Development, 
                      PepsiCo, Inc., Purchase, NY
    I would like to take this opportunity to thank Chairman Bingaman 
and Ranking Member Murkowski for their important work on this 
Committee. I would like to specifically thank Subcommittee Chairwoman 
Shaheen and Ranking Member Lee for holding this hearing and inviting 
PepsiCo to talk about its efforts to reduce energy usage and improve 
water efficiency.
    My name is Dan Bena, and I am the Senior Director of Sustainable 
Development for PepsiCo, the largest food and beverage company in North 
America and second globally, with net revenues of more than $65 billion 
and a product portfolio that includes 22 brands that generate more than 
$1 billion each in annual retail sales. With nearly 300,000 associates 
worldwide--over 100,000 of which are employed in the United States-- 
and serving consumers in more countries and territories than the United 
Nations has member States, PepsiCo's people are united by what we call 
Perfounance with Purpose. Performance with a Purpose is a principle 
through which PepsiCo is committed to sustainable growth by investing 
in a healthier future for people and our planet. We believe this means 
a more successful future for PepsiCo.
    In this context, we have made several public commitments around 
environmental sustainability. Specifically, to:

  <bullet> help conserve global water supplies, especially in water-
        stressed areas, and provide access to safe water;
  <bullet> continue to make our packaging increasingly sustainable, 
        minimizing our mpact on the environment;
  <bullet> work to eliminate solid waste sent to landfills from our 
        production facilities; work to achieve an absolute reduction in 
        GHG emissions across our global businesses; and,
  <bullet> continue to support sustainable agriculture by expanding 
        best practices with our growers and suppliers.

    Particularly germane to the focus of this subcommittee is the 
progress we have made in the area of water conservation. We established 
a system-wide goal in 2006 to improve our water use efficiency by 20 
percent by 2015, and I am proud to advise that by the end of 2011, we 
exceeded that goal--four years earlier than our target. This progress 
is being recognized in a number of ways such as PepsiCo's receipt of 
the US Water Prize this year from the Clean Water America Alliance, and 
receipt of the Stockholm Industry Water Award.
    We have also improved our energy use efficiency by 8.2 percent from 
a 2006 baseline. This represents an estimated $32 MM savings in 2011, 
which corresponds to approximately 1.5 million MWH of thermal and 
electric energy. This is equivalent to the average annual energy 
consumption for nearly 100,000 US homes.
    PepsiCo's vehicle fleet has and will continue to play a critical 
role in the achievement of our energy reduction targets. For example, 
in 2008, our Frito-Lay business in the United States set a goal to 
reduce fossil fuel dependency 50 percent by 2020 and become the most 
fuel efficient fleet in North America. Over the last four years, with a 
portfolio of solutions tied to people, process, and technology, Frito-
Lay has reduced fuel usage by 14 percent and has built a glide path to 
the 50 percent reduction. This 14 percent reduction in fuel usage from 
Frito-Lay North America eliminated 6,600,000 gallons of gasoline, which 
is equivalent to taking more than 11,000 cars off the road.
    One of the ways we continue to achieve these results is through the 
broad-scale deployment of ReCon (Resource Conservation)--an innovative 
system used to improve energy and water use efficiency in our 
manufacturing facilities. Through the ReCon process, we audit our 
energy and water management practices, compare all energy and water 
uses and costs, and assign relative values to each in order to zero in 
on what can be improved. Then we make adjustments based on best 
practices used throughout PepsiCo.
    Since 2008, PepsiCo has executed a strategic engagement program 
reduced fuel usage by 14 percent and has built a glide path to 
the 50 percent reduction. This 14 percent reduction in fuel usage from 
Frito-Lay North America eliminated 6,600,000 gallons of gasoline, which 
is equivalent to taking more than 11,000 cars off the road.
    One of the ways we continue to achieve these results is through the 
broad-scale deployment of ReCon (Resource Conservation)--an innovative 
system used to improve energy and water use efficiency in our 
manufacturing facilities. Through the ReCon process, we audit our 
energy and water management practices, compare all energy and water 
uses and costs, and assign relative values to each in order to zero in 
on what can be improved. Then we make adjustments based on best 
practices used throughout PepsiCo.
    Since 2008, PepsiCo has executed a strategic engagement program 
 secure most of the funding needed to begin this research by 
        securing funding from other NGOs and the private sector. The 
        member organizations of PERC are self funding the remainder of 
        the cost. I think we can all agree that it should not be so 
        difficult to conduct this desperately needed research.
  <bullet> The EPA should take the lead in the development of uniform 
        national non-potable water-quality standards applicable to 
        various permissible utilizations of non-potable water. Water-
irements with respect to ensuring that individual plumbing 
fixtures are of very high efficiency. But the building 
n you can 
actually get the local government, or the National or the 
international government to collaborate legitimately with the 
private sector, and you bring NGO's to the party, and you bring 
academia to the party, the result is--you know, people use the 
word synergy, right; one plus one equals three. A lot of times 
that's overused. But with those kinds of collaborations, I 
think it's absolutely true.
 initiative to suppliers in South America and 
Europe in 2011. We anticipate similar results and would be happy to 
share them with the committee once they are available.
    Question 4. I'm interested to learn more about PepsiCo's 
sustainable agriculture program and the irrigation strategies employed 
to conserve water. How are these strategies assisting in water scarce 
areas and how effective would they be in drought ridden areas of the 
United States?
    Answer. PepsiCo's vision for sustainable agriculture is about 
increasing productivity and reducing risk for the benefit of our 
farmers and supply chain. Solutions to agricultural efficiency and 
productivity issues resulting from our environment demand that we ask 
and answer tough questions such as the impact of climate change.
    We know we can effect change with our growers, because we have 
direct touch-points with them. For example, in 2010, we began the 
Sustainable Farming Initiative, a program that defines standardized 
metrics for sustainable agriculture and can be applied to any country, 
any crop, any size land base and for any farmer, large or small. It 
consists of establishing best practices within three pillars: 
environmental, social and economic. We started identifying 
sustainability indicators within the environmental pillar in 2011. 
Since then, nine indicators have been identified, including: soil, 
water, air, energy, agrochemicals, nutrients, GHGs, waste and 
biodiversity. Detailed criteria and best practices are being developed 
to address each one of the nine indicators. We are in the process of 
developing the social and economic pillars, which include identifying 
indicators covering health and safety, employment practices and working 
conditions, among others. We expect to launch the complete program 
globally in 2013 and are striving for our growers and agricultural 
suppliers to be compliant with the program by 2020.
    Even more basic, and a core part of our Sustainable Agriculture 
Policy, the Sustainable Farming Initiative, and our day-to-day 
agricultural practices in the field with our growers, is resource 
conservation.
    We continue to invest in a portfolio of water-conserving 
technologies and techniques here in the United States and around the 
world, both through our business and through our philanthropic arm, the 
PepsiCo Foundation. For example, in addition to evolving our irrigation 
practices from traditional flood irrigation, to central pivot, and 
ultimately to drip, we developed ``i-crop'' technology in partnership 
with the University of Cambridge in the UK. I-crop uses a variety of 
climatic sensors, GPS mapping, and root-zone water measurements, 
coupled with ``cool farm software,'' to deliver precisely the amount of 
water needed to the root zone, precisely when it is needed.
    The PepsiCo Foundation, in partnership with the Columbia University 
th zero 
added cost.
    IAPMO stands ready to work with the Federal government and other 
stakeholders to gain a better understanding about how water is being 
used in different building types so that we can make our plumbing 
systems efficient as possible while maintaining health and safety and 
ensuring system efficacy.
    Question 3. You referred to ``smart'' water in your testimony. What 
sort of similarities do you see between a smart water infrastructure 
and smart grid and how can IAPMO assist in a smart water initiative?
    Answer. As plumbing code developers, we are certainly not experts 
regarding the technical merits or capabilities of a smart electrical 
grid. However, in our view, there are conceptual similarities in 
functionality that can be shared. Specifically, a smart water 
distribution system would contain sensors to alert the owners of the 
system to a catastrophic leak or failure and allow for the isolation of 
such a failure in order to minimize the disruption of service to users, 
minimize water waste and also mitigate the potential for contaminates 
to infiltrate the whole distribution system.
    It is also important to note, that as code developers, our area of 
jurisdiction and expertise is contained to plumbing systems in 
buildings, and not to water distribution systems. Leak detection 
technologies can also be used in building plumbing systems to provide 
real time feedback to building managers, enabling the repair of 
otherwise insidious leaks that not only waste water and energy but can 
also damage other building elements if left unrepaired.
    IAPMO can assist by working within our compliance based code 
development process to help codify such smart technologies and, 
assuming such provisions are adopted by our members, require their 
installation in new construction.
    Question 4. How can IAPMO collaborate with major water utilities to 
provide a unified water efficiency and conservation message to the 
American public?
    Answer. When we consider our looming water crisis, it becomes 
apparent that much is needed in the way of public education and 
awareness. As mentioned during the hearing, we need to initiate a 
candid discussion about water with the American consumer.
    IAPMO stands ready to work with water utilities across the country, 
both large and small, and with Federal government entities such as the 
EPA WaterSense division, towards the development of consumer awareness 
and education materials that can be included in utility bill and made 
available on the internet.
    Our role in such an effort would be to advise home owners and 
commercial building owners regarding water efficiency technologies that 
can reduce consumption and save them money, while also making sure that 
these technologies are installed in a manner that ensures safety and 
meets plumbing code provisions.
       Responses of GP Russ Chaney to Questions From Senator Lee
    Question 1. Please describe the similarities and differences 
between the water ``grid'' and the electric grid. How are these two 
connected?
    Answer. As we mentioned in our response to one of Senator Shaheen's 
questions, as plumbing code developers, we are certainly not experts 
regarding the technical merits or capabilities of a smart electrical 
grid. Having said that, as we gain better understanding of the nexus 
between water and energy it becomes increasingly clear that efforts to 
foster water efficiency also yield surprising energy efficiencies and 
vice versa.
    Question 2. What are the unknowns between the interconnectedness of 
g products no longer protect the health and safety of consumers. 
In fact, PMI is currently part of the Plumbing Research Efficiency 
Coalition (PERC) which is undertaking a building drainline research 
study that will analyze the potential for blockages resulting from the 
use of reduced flow water closets in commercial buildings and evaluate 
the use of higher volume flush valve discharges at intermittent 
intervals as a way to effectively clear drainlines.
    The PERC research is intended to answer important questions about 
product performance and design considerations at lower flow rates. Once 
the research is complete, product/water efficiency questions will be 
able to be answered with facts and research data. We may, in fact, be 
at the practical limits of efficiency and any further reductions in 
efficiency levels in some consumer plumbing products, specifically 
toilets and showerheads, need to be based on scientific study in order 
to ensure continued efficacy and safety in addition to increased levels 
of water and energy efficiency.
    The funding for this study took years to secure and came from code 
organizations, a variety of trade associations, including PMI, 
individual plumbing manufacturing companies and NGOs. Unfortunately, 
the federal agencies declined to support this critical PERC research. 
In the future, the federal government should be involved in the 
development of key research programs and provide some financial support 
for scientific study to ensure that increasingly precious water 
supplies are used as efficiently as possible in buildings and homes, 
while maintaining health and safety.
    EPA's WaterSense program is an essential element in the development 
of a water focused benchmarking initiative, but focuses on individual 
plumbing products and not the use of water throughout commercial 
buildings.
Conclusion
    PMI member companies are committed to designing and producing 
water-efficient products, without sacrificing performance. We 
understand the importance of both water conservation and energy 
reduction. Our association and its members continue to raise the bar in 
developing the most advanced water efficient plumbing products and 
further our commitment to preserving our environment. Our efforts will 
help ensure reliable water supplies today and for future generations.
    We look forward to working with the committee in the 113th Congress 
to further discuss the important nexus of water efficient plumbing 
products and its impact on energy use. In the meantime, if you have any 
questions regarding our statement, contact Barbara Higgens, Executive 
Director, Plumbing Manufacturers International.

                                    

      
ng, volumes, or 
irrigation--increase irrigation efficiency.
    The reason we are asking for this is because of the clear 
embedded energy benefits that this investment would provide 
nationally, as well as additional jobs in this area.
    So, thank you for the opportunity to comment.
    [The prepared statement of Ms. Dickinson follows:]

  Statement of Mary Ann Dickinson, President/CEO, Alliance for Water 
                        Efficiency, Chicago, IL
    The Alliance for Water Efficiency is pleased to participate in this 
hearing on the important connection between water and energy, and we 
greatly appreciate the strong leadership of Senator Shaheen and the 
Senate Committee on Energy and Natural Resources on this issue. The 
Alliance is a non-profit organization of diverse stakeholders with 
experience in water conservation programs and policies, and dedicated 
to furthering the efficient and sustainable use of water in North 
America. It is the only national organization devoted solely to this 
purpose.
    We have been interested in the relationship between water and 
energy since we were founded five years ago. A project of which we are 
particularly proud is a joint effort we undertook with the American 
Council for an Energy Efficient Economy (ACEEE) in 2010, to coalesce 
the views of 75 organizations involved in the water-energy arena. The 
ed a study 
on the energy efficiency impacts of hard water. The study concluded 
that scale formed by hard water can lead to as much as a 24 percent 
loss of energy efficiency in water heaters and that treatment with 
water softeners preserved the original factory efficiency ratings of 
water heaters over a 15-year lifetime. Are you familiar with this study 
and its conclusions?
    Answer. The WQA / Battelle study was provided to our Green 
Technical Committee and was considered in the development of certain 
provisions contained in the IAPMO Green Plumbing and Mechanical Code 
Supplement. As such, yes, we are familiar with this study and its 
conclusions.
    Question 6. Based on these types of results and the potential 
impact of hard water on energy efficiency, do you believe that reducing 
or eliminating scale is an important factor in allowing appliances such 
as water heaters to maintain their Energy Star ratings?
    Answer. Clearly, reducing the buildup of scale in water heaters 
impacts the efficiency of water heaters whether it is an Energy Star 
labeled product or not. Scale also robs energy and water efficiency by 
clogging plumbing fixture fittings such as faucets and showerheads. 
However, the Green Technical Committee did find cause for concern with 
nancial support for scientific study to ensure that 
increasingly precious water supplies are used as efficiently as 
possible in buildings, while maintaining health and safety.
    Finally, we ask that thwith suppliers in North America, and by the end of 2011 the program 
involved 50 suppliers representing over 120 facilities. These suppliers 
leveraged the ReCon program to deliver a single-year 2.5 percent 
improvement in thermal energy efficiency, 7 percent improvement in 
electrical energy efficiency and an 18.7 percent reduction in waste-to-
landfill. This corresponds to an estimated productivity improvement of 
nearly $2 million in 2011.
    Throughout the last eight years, PepsiCo's partnership and 
relationship with the EPA Energy Star program has been very strong. 
PepsiCo has been an active participant with the Food Processing Focus 
Team and has spoken at a number of Energy Star events. Our Energy 
Management Program has been highlighted in the EPA's Public Service 
Announcements (see Addendum One*). The EPA's Guidelines for Energy 
Management have been used as the foundation of PepsiCo's successful 
internal and external Energy Management/Sustainability programs. And, 
as a direct result of PepsiCo's Supplier/Co-Packer Outreach Program, 
more than 150 additional companies have joined the Energy Star Program.
---------------------------------------------------------------------------
    * All addendums have been retained in subcommittee files.
---------------------------------------------------------------------------
    Since joining the EPA Energy Star program, PepsiCo has been 
recognized with awards for Partner of the Year in Energy Management in 
2007 and Partner of the Year in Sustained Excellence in 2008, 2009, 
2010, 2011 and 2012.
    Recognition is great, but no single company can alone resolve the 
magnitude of the global crises we face today, which is why 
collaboration and partnership are so critical for lasting solutions and 
impact. In this context, I cite the progress of the Beverage Industry 
Environmental Roundtable (BIER). The Beverage Industry Environmental 
Roundtable is a technical coalition of leading global beverage 
companies working together to advance environmental sustainability 
within the beverage sector. Formed in 2006, BIER aims to accelerate 
sector change and create meaningful impact on environmental 
sustainability, including water efficiency, matters. Through 
development and sharing of industry-specific analytical methods, best 
practice sharing, and direct stakeholder engagement, BIER accelerates 
the process of analysis to sustainable solution development.
    Each year, the industry water dataset continues to grow in size, 
with 2011 representing the most robust report to date, including over 
1,600 facilities distributed across six continents. Analyses were 
conducted to determine industry water use, production, and water use 
ratio over a three year period from 2008-2010. Over this period, the 
industry aggregate water use ratio improved by 9 percent, avoiding the 
use of approximately 39 billion liters of water in 2010. To put this in 
context, this is enough water to supply the entire population of New 
York City for eight days (see Addendum Two).
    However, water and energy use in our food and beverage facilities 
is only a small part of the picture. Agriculture represents 
approximately 70 percent of water use globally, and as high as 90 
percent in developing economies; 30 percent of the world's greenhouse 
gas emissions; and 40 percent of the worldwide employment. To improve 
resource use in agriculture is to have significant positive impact on 
the environment.
    Improved resource use also makes good business sense. For example, 
six out of 10 of PepsiCo's top-sourced raw materials are agricultural. 
We conduct agricultural operations in 30 countries. For PepsiCo, 
maintaining a sustainable supply chain is paramount to minimizing risks 
to our business operations.
    One of the ways that we are maintaining a sustainable supply chain 
is by focusing on irrigation. The irrigation methods employed by 
PepsiCo are constantly evolving to better meet the needs of local 
communities. Irrigation methods such as flood, pivot, and drip can 
conserve in excess of 70 percent of farm water use. We are piloting 
technology such as i-crop, developed in partnership with Cambridge 
University, and low-cost tensiometers, developed in partnership with 
the PepsiCo Foundation and the Earth Institute, both of which have the 
potential to conserve billions of gallons of water in agriculture.
    We are also testing innovative approaches to reduce on-farm 
greenhouse gas emissions. One example is with our US Tropicana 
business, where the single biggest contributor to Tropicana's carbon 
footprint wasn't the transport of the juice to stores or the energy 
required to operate a modern citrus farm. Rather, it was the fertilizer 
used to grow the orange trees. A great deal of natural gas is used to 
make nitrogen fertilizer, and a great deal of fertilizer is used on 
citrus trees--so much that fertilizer accounted for 15 percent of the 
total carbon footprint for our orange juice. We have partnered with a 
company called Yara, to pilot an alternative fertilizer. If successful, 
the greener fertilizers could lower the carbon footprint of PepsiCo's 
citrus growers by as much as 50 percent and reduce the total carbon 
footprint of Tropicana orange juice by up to 12 percent. Given how much 
fertilizer is used throughout the U.S. farming system as a whole--more 
than 13 million tons of nitrogen in 2007 alone--a greener way to help 
plants grow could put a serious dent in U.S. carbon emissions (see 
Addendum Three).
    Finally, understanding this subcommittee's interest in the nexus 
between water and energy, I share two initiatives at PepsiCo of which 
we are especially proud.
    The first is our snacks manufacturing facility in Casa Grande, 
Arizona. A few years ago, Frito-Lay set out on an ambitious mission to 
transform an existing facility so that it would run primarily on 
renewable energy sources and recycled water while producing nearly zero 
waste. We called this effort ``near net zero.'' We chose the Casa 
Grande, Arizona facility because of its location, where sunlight is 
plentiful and water conservation is important, and its size--big enough 
to be effective, yet small enough to be manageable. Frito-Lay invested 
in and implemented a combination of technologies to enable Casa Grande 
to significantly reduce the use of key natural resources and reduce the 
site's overall environmental footprint. Using innovative technologies, 
our Casa Grande facility is generating two-thirds of all energy used 
from renewable sources and is working towards significant reductions. 
Specifically, 75 percent of the water is recycled, 50 percent reduction 
in greenhouse gas emissions, and an 80 percent reduction in the use of 
natural gas (see Addendum Four).
    Finally, we understand the importance of lasting change being 
within reach only when large-scale policies are enacted. In Gujarat, 
India, PepsiCo Foundation partnered with the Columbia University Water 
Center to test a new approach to positively impact food security, water 
security, and climate security--all in one model. The details are 
supplied in a white paper as Addendum Five, but, in short this paper 
presents the results of the Columbia Water Center's study of the severe 
groundwater crisis in the Mehsana region of Northern Gujarat, India. 
The study concludes that the current pattern of groundwater 
exploitation is both costly for the state and unsustainable for 
farmers, and could lead to the complete failure of agriculture in the 
area within a few years if left unchecked. The study was conducted as 
the first phase of a multi-phased project designed to help conserve 
water and energy while improving farmer incomes in North Gujarat. 
Future papers will outline the initial outcomes of the area pilot 
project along with resulting recommendations for policymakers in the 
area.
    Again, I would like to thank Chairwoman Shaheen and Ranking Member 
Lee for giving PepsiCo this opportunity to share its perspectives.

    Senator Shaheen. Thank you very much, Mr. Bena.
    Mr. Chaney.

STATEMENT OF GP RUSS CHANEY, CEO, INTERNATIONAL ASSOCIATION OF 
         PLUMBING AND MECHANICAL OFFICIALS, ONTARIO, CA

    Mr. Chaney. Chairwoman Shaheen, Ranking Member Lee, and 
members of the subcommittee, we appreciate the opportunity to 
sit before the Subcommittee on Water and Power to discuss the 
critically important issue of water use, water efficiency, and 
the important impact water efficiency has upon our country's 
overall energy use.
    My name is Russ Chaney and I am the CEO of the IAPMO Group. 
The IAPMO Group led by the International Association of 
Plumbing and Mechanical Officials was founded in 1926. With 
membership of approximately 8,300 members, IAPMO publishes the 
Uniform Plumbing Code, the Uniform Mechanical Code, the Uniform 
Solar Energy Code, and the Uniform Swimming Pool, Spa and Hot 
Tub Code, all designated by ANSI, as American National 
Standards.
    In 2010, IAPMO published the first green construction code 
in the United States, the Green Plumbing and Mechanical Code 
Supplement. The Green Supplement is a separate document from 
the Uniform Plumbing and Mechanical Codes and it establishes 
requirements for a green building, water efficiency, and water 
reuse, applicable to plumbing, mechanical, and solar energy 
systems.
    The Green Supplement serves as a resource for many 
progressive jurisdictions across the country that are 
implementing green building and water efficiency programs. By 
adhering to the water efficiency provisions found within the 
Green Supplement, 35 percent water savings over baseline code 
and EPAct level requirements can be obtained in both 
residential and commercial buildings.
    Just last month, IAPMO was invited to join the United 
States Water Partnership. This partnership, which was unveiled 
by Secretary of State Hillary Clinton, includes nearly all 
Federal agencies and many other notable organizations.
    IAMPO recognizes that, especially here in the United 
States, the energy embedded in water is both grossly under-
recognized as an area of opportunity where energy savings can 
be cost-effectively realized, and is underutilized as a source 
of clean, renewable energy.
    In January 2012, the U.S. EPA officially delegated the 
development of a heat metering standard to a partnership of 
ASTM International and IAPMO. This standard will greatly assist 
the country in realizing the benefits, and improving the 
acceptance, of solar thermal, radiant, and other hydronic 
technologies.
    IAPMO also recognizes that the only way for an integrated 
water use strategy to be successful is to minimize consumption 
and maximize recovery. Fully developed codes and standards 
addressing the safe installation and use of water reuse 
technologies, such as rainwater catchment systems, gray water 
systems, and systems--municipally supplied reclaimed water will 
be critical to eliminate barriers, while maintaining health and 
safety.
    However, much more needs to be done to address our water 
and energy needs. We ask that the Federal Government develop 
incentives for State and local governments to adopt and 
properly enforce comprehensive Green Plumbing codes.
    We ask that the Federal Government support the research and 
development of less invasive water metering and sub-metering 
technologies, and then deploy these technologies to better 
understand the complex water use patterns associated with 
various building types. This will yield very significant water 
and energy efficiencies, through smarter-sizing of our 
buildings' plumbing systems.
    We ask that the Federal Government consider incentives to 
building owners that voluntarily have their buildings audited, 
and then implement the results of those audits to reduce their 
energy and water use.
    We ask the Federal Government to provide incentives for 
State and local governments to require water utilities to 
conduct independent leakage audits and to report the percentage 
of water leaking from their distribution systems, along with a 
plan for the repair and update of those systems, that 
demonstrate excessive leakage.
    According to the American Society of Civil Engineers, our 
leaking water infrastructure wastes over 7 billion gallons of 
potable water every day. Now, please keep in mind that this is 
water that has been treated to strict and expensive drinking 
water standards. Frankly, we find it is unacceptable that we 
ask our Nation's manufacturers to continually trim tenths of a 
gallon off the consumption levels of their products, at 
considerable cost to both them and the end consumer, when so 
much water is being lost between the point of treatment and the 
point of use. This is an area that must be improved upon.
    The Federal Government should become more actively engaged 
in the development of necessary research programs and provide 
financial support for scientific study to ensure that 
increasingly precious water supplies are used as efficiently as 
possible in buildings, while maintaining health and safety.
    Finally, we ask that the Federal Government support the 
integration of IT-based networks, into both our Nation's water 
distribution systems and within our build--our Nation's 
buildings, in order to help create smart water systems as part 
of a national water strategy.
    As you know, there is no substitute for water. While we 
will always be able to use the incredible ingenuity of the 
American people to find alternate sources of energy as our 
needs and circumstances evolve, we must recognize that there 
simply is no substitute for water.
    Thank you very much.
    [The prepared statement of Mr. Chaney follows:]

Prepared Statement of GP Russ Chaney, CEO, International Association of 
             Plumbing and Mechanical Officials, Ontario, CA
    Chairwoman Shaheen, Ranking Member Lee and members of the 
subcommittee, we appreciate the opportunity to sit before the 
Subcommittee on Water and Power to discuss the critically important 
issue of water use, water efficiency and the important impact water 
efficiency has upon our country's overall energy use.
    My name is Russ Chaney, Chief Executive Officer for the IAPMO 
Group. The IAPMO Group, led by the International Association of 
Plumbing and Mechanical Officials, was founded in 1926, and remains the 
pre-eminent code development, product certification and testing, and 
training/curriculum providing organization for plumbing, mechanical, 
swimming pool, solar and radiant heating industries in the United 
States and around the world. With approximately 8,300 members, IAPMO 
remains the only standards body where plumbing, mechanical and solar 
codes are developed employing a true and fully voluntary consensus 
process. We proudly publish our flagship model codes, the Uniform 
Plumbing Code, Uniform Mechanical Code, Uniform Solar Energy Code and 
Uniform Swimming Pool, Spa and Hot Tub Code, as designated as American 
National Standards, accredited by the American National Standards 
Institute (ANSI).
    IAPMO's membership is comprised of plumbing and mechanical 
professionals, inspectors, engineers, code officials, manufacturers of 
plumbing, mechanical and building products, plumbing and mechanical 
contractors, water and energy efficiency experts--all areas and 
expertise required in the design, installation and maintenance of our 
country's plumbing, mechanical, solar and hydronic systems.
    In addition to providing code development assistance, The IAPMO 
Group provides critically needed training and education programs, 
including the Green Plumbers USA program, an industry-leading plumbing 
and mechanical product testing and certification program, a building 
products evaluation service and a manufacturer-preferred quality 
assurance program.
    In 2010, IAPMO published the first green construction code in the 
United States, the IAPMO Green Plumbing and Mechanical Code Supplement. 
The Green Supplement is a separate document from the Uniform Plumbing 
and Mechanical codes and establishes requirements for green building, 
water efficiency and water reuse applicable to plumbing, mechanical, 
and solar energy systems. The Green Supplement serves as a resource for 
many progressive jurisdictions across the country that are implementing 
green building and water-efficiency programs. By adhering to the water-
efficiency provisions found within the Green Supplement, 35 percent 
water savings over baseline code and EPAct level requirements can be 
attained in both residential and commercial buildings.
    Each component of The IAPMO Group works toward playing an integral 
part in protecting the health of people everywhere and toward making 
the most efficient use of our nation's most precious resource.
    Just last month, IAPMO was invited to join a critically important 
initiative on international water efforts in the United States Water 
Partnership. This partnership, which was originally unveiled by 
Secretary of State Hillary Clinton in March, includes partners such 
Coca-Cola, Proctor and Gamble, the Water Institute at the University of 
North Carolina, nearly all federal agencies and many other notable 
organizations. The purpose of this partnership is:
    ``To ensure sustainable and equitable water management that 
benefits people and our environment through:

  <bullet> Improving access and quality of service for water, 
        sanitation and hygiene.
  <bullet> Advancing integrated water resource management.
  <bullet> Increasing efficiency and productivity of water use.
  <bullet> Improving governance through stronger public and private 
        institutions, policies and processes.''

    This is a very exciting initiative that will help address water 
problems on a global scale.
    IAPMO is proud to be a contributor to the National Institute of 
Building Science's Consultative Council by chairing the council's Water 
and Energy Efficiency Topical Committee, and we fully support the 
recommendations put forth by the council as published in the 
institute's Annual Report to the President of the United States.
    IAPMO recognizes that, especially here in the United States, the 
energy embedded in water is both grossly under-recognized as an area of 
opportunity where energy savings can be cost effectively realized and 
is underutilized as a source of clean, renewable energy.
    On Jan. 20, 2012, the U.S. EPA officially delegated the development 
of a Heat Metering standard to a partnership of ASTM International and 
IAPMO. Since that time, IAPMO and ASTM International have worked to 
expand the scope of their combined efforts on solar thermal 
technologies in support of the Heat Metering standardization project. 
These efforts will greatly assist the country in realizing the 
benefits--and improving the acceptance--of solar thermal, radiant and 
other hydronic technologies.
    IAPMO also recognizes that that the only way for an integrated 
water-use strategy to be successful is to minimize consumption and 
maximize recovery. Fully developed codes and standards addressing the 
safe installation and use of water-reuse technologies such as rainwater 
catchment systems, gray water systems and municipally supplied 
reclaimed water will be critical to eliminate barriers while 
maintaining health and safety. In 2012, we formally adopted all 
technical provisions on water reuse from our Green Supplement into our 
baseline model code, the Uniform Plumbing Code. As such, the Uniform 
Plumbing Code became the first baseline code to provide guidance on the 
safe use of these technologies, along with a path of compliance for the 
installation of these systems in a model construction code.
    As significant as these accomplishments--and the combined 
accomplishments of all the dedicated and talented people who comprise 
our nation's standards and codes developing organizations--are, much 
more needs to be done to address our water and energy needs. 
Specifically, we respectfully ask that the federal government consider 
the following actions that will greatly assist the private sector in 
moving forward toward a more water and energy efficient future:

  <bullet> We ask that the federal government develop incentives for 
        state and local governments to adopt and properly enforce 
        comprehensive green plumbing codes. As good as our nation's 
        codes are, if they are not adopted and enforced at the local 
        level, the country cannot realize the efficiencies these codes 
        provide.
  <bullet> We ask that the federal government support the research and 
        development of less invasive water metering and sub-metering 
        emerging technologies and then deploy these technologies to 
        better understand complex water-use patterns associated with 
        various building types. This will yield very significant water 
        and energy efficiencies through smarter sizing of our 
        building's plumbing systems.
  <bullet> Widespread energy and water auditing will provide data and 
        information required to establish more accurate baseline 
        metrics and will help prioritize the installation of energy- 
        and water-efficient technologies that provide the best return 
        on investment and real-time or near real-time feedback to 
        building owners. We ask that the federal government consider 
        incentives for building owners who voluntarily have their 
        buildings audited and implement the results of those audits to 
        reduce their energy and water use.
  <bullet> We ask that the federal government provide incentives for 
        state and local governments to require water utilities to 
        conduct independent leakage audits and report the percentage of 
        water leaking from their distribution systems, along with a 
        plan for the repair and update of systems that demonstrate 
        excessive leakage. Much is known about the needs of our aging 
        water infrastructure and it is critically important that these 
        issues be addressed. According to the American Society of Civil 
        Engineers, our water infrastructure rates a grade of D-minus 
        with over 7 billion gallons of potable water a day wasted due 
        to leaking water infrastructure. Keep in mind, that this is 
        water that has been treated to strict and expensive drinking 
        water standards and contains all of the embedded energy 
        embodied in such treatment and delivery. Frankly, we find it 
        unacceptable that we ask our nation's manufacturers to 
        continually trim tenths of a gallon off of the consumption 
        levels of their products--at considerable cost to both them and 
        to the end consumer--when so much water is being lost between 
        the point of treatment and the point of use. This is an area 
        where improvement is necessary.
  <bullet> The federal government should become more actively engaged 
        in the development of necessary research programs and provide 
        financial support for scientific study to ensure that 
        increasingly precious water supplies are used as efficiently as 
        possible in buildings while maintaining health and safety. 
        IAPMO, along with the Alliance for Water Efficiency, the 
        American Society of Plumbing Engineers, the Plumbing 
        Manufacturers International, the International Code Council and 
        the Plumbing--Heating--Cooling Contractors Association is a 
        founding member of the Plumbing Research Efficiency Coalition, 
        PERC, which is conducting a research program on the impact of 
        reduced flows on building drains. This research is needed to 
        ensure that we do not experience unintended consequences 
        related to our water-efficiency efforts. The entire plumbing 
        industry is concerned that we may be reaching tipping points at 
        which plumbing products and systems fail to operate as intended 
        and risk the health and safety of our citizens. We may, in 
        fact, be at the practical limits of efficiency and any further 
        reductions in efficiency levels in some consumer products, 
        specifically toilets and showerheads, need to be based on 
        scientific study in order to ensure continued efficacy and 
        safety in addition to increased levels of water and energy 
        efficiency. Sadly, PERC struggled mightily to secure the meager 
        funding needed to support their research effort and was turned 
        away on numerous occasions when seeking support from the 
        federal government. Fortunately, however, PERC was able to 
        secure most of the funding needed to begin this research by 
        securing funding from other NGOs and the private sector. The 
        member organizations of PERC are self funding the remainder of 
        the cost. I think we can all agree that it should not be so 
        difficult to conduct this desperately needed research.
  <bullet> The EPA should take the lead in the development of uniform 
        national non-potable water-quality standards applicable to 
        various permissible utilizations of non-potable water. Water-
        quality standards should reflect the minimum water-quality 
        parameters required to protect public health and safety and 
        protect the integrity and function of plumbing systems and 
        devices.
  <bullet> Finally, we encourage the Federal Government to earnestly 
        begin work on the development of a comprehensive and 
        coordinated water strategy to meet the needs of our growing 
        nation. We applaud the efforts of the National Institute of 
        Standards and Technology (NIST) in convening stakeholders for a 
        White House summit to discuss the role of emerging technology 
        in addressing our nation's water needs and concerns. Our water 
        strategy should include requirements for the incorporation of 
        IT based systems and components into all water distribution 
        projects that receive Federal funding. These IT enhanced 
        systems, characterized as ``smart water systems'' will be 
        capable of monitoring for leaks thus ensuring efficiency and 
        more consistent compliance to the requirements of our safe 
        drinking water standards. Similar technologies can also be 
        deployed in building plumbing systems providing real time 
        feedback to building managers. As we go about the necessary 
        work of repairing our water infrastructure and plumbing 
        systems, we must also modernize these systems as well in order 
        to maximize the full potential of our investments.

    Chairwoman Shaheen, Ranking Member Lee and members of the 
subcommittee, it is indeed an honor to be able to provide these 
comments to you today. As you know, there is no substitute for water. 
While we will always be able to use the incredible ingenuity of the 
American people to find alternate sources of energy as our needs and 
circumstances evolve, we must recognize that there simply is no 
substitute for water. We rely on access to safe, clean water every day.
    Last summer the state of Texas was stricken with a severe drought 
that resulted in the closure of businesses in the impacted areas. 
Already this summer, according to the National Climate Data Center, 
well over 50 percent of the nation is experiencing drought conditions 
resulting in the worst drought crisis since the 1950's. Combined with 
certain population growth, especially in the most water-challenged 
regions of our country, these realities illustrate that the time to 
take action on our water-related needs is now.
    The good news is that addressing these needs carries with it 
profound job-creation opportunities. The United States Conference of 
Mayors estimates that every job created through rebuilding water 
systems creates more than 3.6 jobs elsewhere and every dollar invested 
in water infrastructure adds $6.35 to the national economy. 
Retrofitting of buildings and homes that still have older water-
guzzling plumbing fixtures and fittings with high-efficiency models can 
create thousands of additional jobs and yield substantial water and 
energy savings at the same time. Let's take advantage of these 
opportunities to address two urgent national needs: job creation and 
ensuring a secure water future for the United States of America.
    Again, I appreciate your time today and look forward to answering 
any questions you may have.
    Thank you.

    Senator Shaheen. Thank you, Mr. Chaney.
    Ms. Dickinson.

 STATEMENT OF MARY ANN DICKINSON, PRESIDENT/CEO, ALLIANCE FOR 
                 WATER EFFICIENCY, CHICAGO, IL

    Ms. Dickinson. Thank you, Senator Shaheen, Senator Lee.
    The Alliance for Water Efficiency is pleased to participate 
in this hearing on the important connection between water and 
energy, and we greatly appreciate the strong leadership of both 
of you on this critical issue.
    My name is Mary Ann Dickinson, and I am the President and 
CEO of the Alliance, which is a nonprofit organization of 365 
stakeholder organizations of very diverse affiliations that all 
have experience in water conservation programs and policies. We 
are dedicated to furthering the efficient and sustainable use 
of water in North America, and we are the only national 
organization devoted solely to this purpose.
    We have been interested in the relationship between water 
and energy since we were founded 5 years ago. A project of 
which we are particularly proud is a joint effort we undertook 
with the American Council for an Energy Efficient Economy, 
ACEEE, in 2010, to coalesce the views of 75 different 
organizations in the United States that are involved in both 
water and energy. The resulting work product, A Blueprint for 
Action, contains numerous recommendations for national and 
State action, in the areas of policy, standards and codes, 
programs, and research.
    Of particular interest is how much water is needed, or 
embedded, in the generation of electricity and how much energy 
is embedded in drinking water pumping and treatment, as well as 
wastewater treatment.
    With a fuller understanding of this significant 
relationship nationally, Federal funding programs can be 
developed which will cost-effectively and collectively save the 
most amount of energy and water and, therefore, greenhouse gas 
emissions for the United States. Copies of the Blueprint report 
are being provided to you, all the committee members and staff, 
and we urge you to consider its recommendations.
    We wish in our testimony to make 3 basic points, as 
follows: No. 1: Water efficiency has already been very 
successful in saving the Nation's resources and in helping to 
deter--defer new capacity infrastructure and, thus, should be 
further promoted at the Federal level.
    Plumbing product and appliance standards, as you have 
heard, have reduced indoor water consumption by a range of 43 
to 86 percent per fixture or appliance, depending upon the 
product. EPA's WaterSense label, launched in 2006, has labeled 
over 4,500 products; the sales of which have resulted in 287 
billion gallons saved and $4.7 billion saved in consumer water 
and energy bills.
    By the end of 2011, EPA estimates that there have been 
reductions of 34--38.4 billion kilowatt hours of electricity, 
along with reductions of 13 million metric tons of greenhouse 
gas emissions. That is equivalent to planting about 50 million 
trees. EPA's work in this area is a significant achievement in 
a short time.
    But the Nation's water utilities have been active as well, 
reducing consumer demand across the country through cost-
effective investments in end-use conservation programs. With 
the country's infrastructure needs now estimated by EPA to be 
in neighborhood of $334 billion by 2027, reduced demands due to 
water efficiency can help reduce the need for infrastructure 
capacity expansion, which is a significant part of the 
infrastructure estimate.
    In fact, EPA's Community Water System survey in 2006 
estimated that in the Nation's 53,000 community systems, over 
50 percent of the capital expenditures were for the expansion 
of infrastructure, not rehabilitation or replacement. Thus, 
water efficiency can be a cost-effective solution in these 
expanding systems, where population growth may require new 
supplies, storage, or enlarged treatment systems.
    Point No. 2: Saving water saves energy, and the benefits 
are documentable. As you have also heard from the other 
witnesses, California has done seminal research in this area, 
beginning in 2005 and with its integrated energy policy report, 
which our Blueprint for Action recommends be duplicated 
nationwide. This work by the Energy Commission showed that the 
amount of embedded energy in water and wastewater was in a wide 
range, from anywhere from 2,000 to 20,000 kilowatt hours per 
million gallons of water produced.
    A national study conducted by River Network in 2009, which 
is called the Carbon Footprint of Water, estimated that as much 
as 13 percent of the Nation's electric energy load is related 
to water and wastewater deliveries, equivalent to approximately 
15 percent of the U.S. carbon load.
    Further studies completed by the California Public 
Utilities Commission clarified, in more detail, the extent of 
embedded energy in a variety of different water supply sources. 
The detailed copy of our testimony gives a lot of those figures 
in a table that is on page 8.
    Point No. 3: Water efficiency research, as well as consumer 
retrofit programs, should be funded and incentivized on a par 
with energy efficiency programs, because they yield 
documentable energy savings.
    With the Nation's drought now gripping 62 percent of the 
counties in the U.S., and with water supplies likely to reach 
shortage conditions if it continues, the time is right for the 
Federal Government to carefully assess water efficiency as a 
beneficial strategy. Although many water-efficient products, 
technologies, and programs already exist, more research and 
development is needed. To date, funding has been extremely 
limited and insufficient, given the chronic need.
    With respect to consumer incentives, billions of dollars 
have been spent over the past decade on energy efficiency 
consumer rebates and tax incentives, but in the area of water 
efficiency, these programs have been largely undertaken by the 
water system ratepayers, with very little State or Federal 
funding.
    Thus, we strongly recommend that national incentives be 
enacted for water efficiency programs, and further, that a 
national policy be instituted to allow energy efficiency 
funding to be used for cold water conservation programs, as 
well as hot water conservation programs. By cold water 
programs, I mean programs that reduce plumbing, volumes, or 
irrigation--increase irrigation efficiency.
    The reason we are asking for this is because of the clear 
embedded energy benefits that this investment would provide 
nationally, as well as additional jobs in this area.
    So, thank you for the opportunity to comment.
    [The prepared statement of Ms. Dickinson follows:]

  Statement of Mary Ann Dickinson, President/CEO, Alliance for Water 
                        Efficiency, Chicago, IL
    The Alliance for Water Efficiency is pleased to participate in this 
hearing on the important connection between water and energy, and we 
greatly appreciate the strong leadership of Senator Shaheen and the 
Senate Committee on Energy and Natural Resources on this issue. The 
Alliance is a non-profit organization of diverse stakeholders with 
experience in water conservation programs and policies, and dedicated 
to furthering the efficient and sustainable use of water in North 
America. It is the only national organization devoted solely to this 
purpose.
    We have been interested in the relationship between water and 
energy since we were founded five years ago. A project of which we are 
particularly proud is a joint effort we undertook with the American 
Council for an Energy Efficient Economy (ACEEE) in 2010, to coalesce 
the views of 75 organizations involved in the water-energy arena. The 
resulting work product, A Blueprint for Action, contains numerous 
recommendations for national and state action in the areas of policy, 
standards and codes, programs, and research. Of particular interest is 
how much water is needed (or ``embedded'') in the generation of 
electricity, and how much energy is ``embedded'' in drinking water 
pumping and treatment as well as waste water treatment. With a fuller 
understanding of this significant relationship, federal policies and 
funding programs can be developed which will cost-effectively and 
collectively save the most amount of energy, water and greenhouse gas 
emissions for the United States. Hardcopies of the report are being 
provided to committee members and staff, and we urge you to consider 
its recommendations. Electronic copies of A Blueprint for Action can be 
downloaded at the following link: http://
www.allianceforwaterefficiency.org/blueprint.aspx

    We wish to make three basic points in our testimony, as follows:

          1. Water efficiency has already been very successful in 
        saving the nation's resources and in helping to defer new 
        capacity infrastructure, and should be further promoted at the 
        federal level.--Plumbing product and appliance standards, in 
        effect since the Energy Policy Act of 1992 and refined in 
        subsequent legislation, have reduced indoor water consumption 
        by a range of 43-86 percent per fixture, depending upon the 
        product (see Table 1*). EPA's WaterSense label, launched in 
        2006, has labeled over 4500 products, the sales of which have 
        resulted in 287 billion gallons saved and $4.7 billion saved in 
        consumer water and energy bills. By the end of 2011, reductions 
        of 38.4 billion kWh of electricity were achieved along with 
        reductions of 13 million metric tons of green house gas 
        emissions--equivalent to the planting of over 50 million trees. 
        EPA's work in this area is a significant achievement in a very 
        short time. But the nation's water utilities have been active 
        as well, reducing consumer demand across the country through 
        cost-effective investments in end use conservation programs. 
        With the country's infrastructure needs now estimated by EPA to 
        be in the neighborhood of $334.8 billion by 2027, reduced 
        demands due to water efficiency programs can help reduce the 
        need for infrastructure capacity expansion, a significant part 
        3 of the infrastructure estimate. In fact, EPA's Community 
        Water System Survey in 2006 estimated that in the nation's 
        53,000 community systems, 52.6 percent of the capital 
        expenditures were for expansion of infrastructure, not 
        rehabilitation or replacement. Thus, water efficiency can be a 
        cost-effective solution in these expanding systems where 
        population growth may require new supplies, storage or enlarged 
        treatment systems.
---------------------------------------------------------------------------
    * All tables have been retained in subcommittee files.
---------------------------------------------------------------------------
          2. Saving Water Saves Energy--and the benefits are 
        documentable.--California has been a leader in this area, 
        having done the seminal research in 2005 which the Blueprint 
        for Action recommends be duplicated nationwide. This work by 
        the California Energy Commission showed that the amount of 
        embedded energy in water and wastewater was in the range of 
        2,000 kWh to 20,000 kWh per million gallons of water produced 
        (see Figure 1**). A national study conducted by River Network 
        in 2009 called The Carbon Footprint of Water estimated that as 
        much as 13 percent of the nation's electric energy load is 
        related to water and wastewater deliveries, equivalent to 5 
        percent of the US carbon load (see Figure 2). Further studies 
        completed by the California Public Utilities Commission 
        clarified in more detail the extent of embedded energy in a 
        variety of different water supply sources (see Table 2). Energy 
        intensities for drinking water and wastewater treatment 
        technologies were documented. Now these values, as evidenced by 
        the pilot projects which measured them, can be productively 
        used in models to estimate energy savings from future water 
        efficiency programs which include a wide variety of measures. 
        The Alliance for Water Efficiency has built just such a model, 
        called the Water Conservation Tracking Tool, which estimates 
        not only the energy savings to the utility from both cold and 
        hot water conservation programs, but also the savings to the 
        customer and the overall reduction of green house gas emissions 
        for a suite of chosen water efficiency programs (See Figure 3 
        for a sample output).
---------------------------------------------------------------------------
    ** All figures have been retained in subcommittee files.
---------------------------------------------------------------------------
          3. Water efficiency research, as well as consumer retrofit 
        programs, should be incentivized on a par with energy 
        efficiency programs, because they yield documentable energy 
        savings.--With drought now gripping 62 percent of the counties 
        in the US, and with water supplies likely to reach shortage 
        conditions if it continues, the time is right for the federal 
        government to carefully assess water efficiency as a beneficial 
        strategy. Although many water-efficient products, technologies, 
        and programs already exist, more research and development is 
        needed. To date, funding has been limited and insufficient 
        given the chronic need. For example, in the past 10 years only 
        $3.5 million has been spent by EPA in water efficiency 
        research, a fraction of what has been spent by the Department 
        of Energy on energy efficiency research. With respect to 
        consumer incentives, billions of dollars have been spent over 
        the past decade on energy efficiency consumer rebates and tax 
        incentives (see Figure 7). In the area of water efficiency, 
        these programs have largely been undertaken by the water system 
        ratepayers, with very little state funding. Virtually no 
        federal money has been allocated for dedicated water efficiency 
        programs. Even the American Recovery and Reinvestment Act 
        (ARRA) allocated out of its $780 billion package $30 billion 
        for energy efficiency programs but only $6 billion for overall 
        water programs--20 percent of which had to be spent on ``green 
        infrastructure'' which could include water efficiency. But an 
        examination of the actual expenditures shows that only 29 
        percent of the 20 percent was actually spent on water 
        efficiency; most of the money in the 20 percent set-aside was 
        spent in energy efficiency, storm water, and environmental 
        innovation projects (See Table 3). In FY12 Congress 
        appropriated $811 million for energy efficiency programs in 
        DOE's Office of Energy Efficiency and Renewable Energy (EERE), 
        and $50 million for Energy Star. Contrast that with zero 
        funding for water efficiency programs and $2 million for 
        WaterSense.

    Thus, we strongly recommend that national incentives be enacted for 
water efficiency programs, and further that a national policy be 
instituted to allow energy efficiency funding to be used for cold water 
conservation programs as well as hot water conservation programs 
because of the clear embedded energy benefits that this investment 
would provide.
    Thank you for the opportunity to comment.

    Senator Shaheen. Thank you very much, Ms. Dickinson, and 
thank you all for your testimony.
    I am going to start where you ended, and that is the lack 
of investment in looking at water use efficiencies. I was 
interested in your testimony because you talk--you do the 
comparison between how much has been spent on energy 
efficiency, and I am particularly interested in this because 
Senator Portman and I have a bill that is a fairly 
comprehensive approach to energy efficiency, that does not 
address water, as you point out.
    But I wonder if you could talk about why you think that is; 
why has the focus been so much on energy and overlook the water 
side?
    Ms. Dickinson. There are probably a couple of reasons for 
that; one is historical. You know, we are structured to deal 
with water at the State level and not at the Federal. It is 
largely very fragmented within Federal agencies, whereas we 
have one central Department of Energy. So some of us have envy 
for a department of water that would have those same 
responsibilities and focus.
    But I think also, we have been in such separate silos for 
so long that we have, until recently, until really the 
California work took place in 2005, we didn't really cross over 
and look at each other's impacts. Now we are seeing, as we look 
at products that the--for example, the Department of Energy is 
issuing product standards for.
    Let's take ice makers as an example. An energy efficient 
ice maker uses water. A water-efficient ice maker uses energy. 
We need to find a sweet spot in between. We need to figure out 
how we optimize both the water and the energy savings, 
particularly because we have now discovered there is so much 
embedded energy in that water.
    So, what we did in the Blueprint for Action was document 
that there are many places in energy efficiency programs and in 
energy policy and research programs where just adding the 
concept of water will make a lot of policy sense. Directing the 
Department of Energy to include water in its deliberations 
would be a very significant development. So we would be urging 
you to do that.
    Senator Shaheen. Thank you. Mr. Chaney, did you want to add 
to that?
    Mr. Chaney. Just one very small point onto what Mary Ann 
provided, and that is, when one looks at the cost of certain 
types of energies compared with the cost of water, there is a 
dramatic difference. I think that is one of the reasons that 
water has not been focused on in a big way because it is, 
simply put, very cheap, comparatively speaking.
    Senator Shaheen. Especially depending on where you live, 
right?
    Mr. Chaney. That is right.
    Senator Shaheen. So, what are some of the barriers to 
deploying the use of water-efficient technologies, the kinds of 
codes and standards you talked about, Mr. Green? What are 
effective ways to overcome these barriers?
    Do you want to go first on responding to that?
    Mr. Green. I will try. First of all, I think that 
throughout our country, there is a problem today with regard to 
the application of codes and standards locally. There is not a 
universal application of codes and standards throughout the 
United States. There are some places in this country that don't 
even have codes in place.
    So, water being lowest on the totem pole, if you will, in 
terms of safety issues, really hasn't been--hasn't drawn that 
much attention. We focus on things like structural safety in 
buildings; we focus on things about prevention of natural 
disasters in buildings. So, codes and standards get that kind 
of press, if you will, but not when it comes to water.
    Aas the other panelists have talked about, water is 
relatively cheap. When you get your water bill at the end of 
the month, you really do not take too much look at it. But when 
you get the gas bill, that is a whole different thing. So, we 
focused, in terms of energy efficiency, in terms of codes and 
standards, to achieve better efficiencies with regard to energy 
use for heating and cooling.
    Even your comments earlier today about how cool it was in 
this building, really are the point. Water, we don't even think 
about because it is there. You know, if we look at the kind of 
codes and standards that we have in this country, which are 
fairly applicable in terms of a lot of the areas, we need to 
get better at the production of more efficiencies in our 
buildings.
    There is a lot of work going on today with respect to pipe-
sizing and how to minimum water loss, but not that great. Then 
when we move over to the utility side, there really is no codes 
or standards that are applied by local units of government as a 
regulatory process; it is only by the utility. They regulate 
themselves in terms of water loss in their piping systems. So, 
that is where a lot of the inefficiencies are today.
    If we had a comprehensive plan, in terms of looking at 
point of generation for water to point of distribution and use, 
we would have the whole gamut to be covered, but we don't have 
that continuity through the process.
    Senator Shaheen. You talked about the abundance of water, 
and I think Ms. Dickinson and Mr. Chaney alluded to that, too. 
But, Mr. Chaney, I was impressed with the map you have in your 
testimony that shows the seasonal drought outlook and the 
projections for future drought, and the whole center of the 
country is projected to have a drought persist or intensify.
    So when you look at the map and look at the potential for 
water scarcity, it adds a whole new dimension to the importance 
of efficiency; wouldn't you agree?
    Mr. Chaney. Absolutely, Senator Shaheen. We have very 
serious potential problems in our country. In many respects, we 
are behind many other developed countries. Australia is the 
most accepted model throughout the world with respect to 
drought conditions and how they have responded. The United 
States, simply put, is a decade or two behind many other 
developed countries.
    As some of the other panelists have pointed out, you know, 
the EPA--some of our Federal agencies have begun to implement 
requirements with respect to ensuring that individual plumbing 
fixtures are of very high efficiency. But the building 
infrastructure and the water supply systems that bring the 
water from the utility to the individual buildings are wasting 
more--much, much more water than we could ever possibly think 
of saving.
    So the infrastructure needs to be addressed. Then we need, 
frankly, resources to conduct research to understand what the 
implications are to public health and safety, because it is a 
continuing balancing point between water and energy 
conservation and taking that to a limit to ensure that we don't 
risk public health and safety.
    Senator Shaheen. You talk about educating the public. What 
kinds of programs are out there that you all have been party 
to, that you think help with that public education piece?
    Ms. Dickinson.
    Ms. Dickinson. Public education programs are largely 
handled at the local level by the water system that is serving 
the community, which is unfortunate because we don't have a 
national message. It is one of the issues that we are hoping to 
work on, on a national basis, at the Alliance for Water 
Efficiency because we don't have a national prerogative, a 
policy, a consumer education program that is recognized as 
being of national interest.
    It really is focused on the local water shed and the local 
situation. That is partly because people have a very emotional 
attachment to their local water supplies and they don't think 
of it as a national issue. It is part of, I think, what we need 
to change.
    Senator Shaheen. If each of you were going to recommend one 
thing that we could do to make water efficiency a higher 
priority, what would you recommend?
    I do not know who wants--Mr. Bena.
    Mr. Bena. From the perspective of a water and energy user 
in the food and beverage industry, one of the challenges that 
we have seen over the years is being able to calculate 
favorable return on investment for some of the technology 
projects that we've liked to employ. I think any Government 
intervention that could help via incentive or other mechanism, 
that would help make those ROI calculations more favorable, it 
would spur remarkable innovation and new technologies, and 
allow us, as the private sector, to incubate really novel 
approaches to both water and energy conservation.
    Senator Shaheen. So give me some examples of what you think 
would be helpful.
    Mr. Bena. One of the things that we are--and, again, this 
is somewhat nascent, but we are doing this in Gujarat, India, 
and it is an example outside the United States. It is done in 
partnership with the Columbia University Earth Institute. In 
this particular part of India, they see that water levels in 
aquifers are dropping up to 3 feet per year, so it is a 
really--it is an abysmal situation there.
    At the same time, farmers, many of them are small-holder 
famers, are digging deeper wells. So when you dig deeper wells, 
obviously it requires more electricity to dig, to withdraw the 
water. The incentives scheme in Gujarat was essentially non-
existent. There was nothing--there was no policy that was 
incentivizing those farmers, either, A, to use less water or, 
B, to use less electricity.
    So the Columbia Water Center, through funding from the 
PepsiCo Foundation, partnered with the government of Gujarat to 
actually try, and it is still very new, but it is trying a new 
scheme to incentivize those farmers, by giving them relief on 
electrical rates to use less water to pump--less water to grow 
the crops. So there we are seeing not only a twofold nexus of 
water and energy, but actually water, energy, and food, as 
well.
    Senator Shaheen. So that the less water they use, the lower 
their bills are----
    Mr. Bena. Correct.
    Senator Shaheen. As opposed to what we often have in our 
electric system, which is the more energy you use, the less 
cost.
    Mr. Bena. That is right. Traditionally, it has been 
unbridled use. It has been really----
    Senator Shaheen. Right.
    Mr. Bena. Unbridled water use.
    Senator Shaheen. Do the rest of you have recommendations 
for one significant change that we can make?
    Mr. Green.
    Mr. Green. Yes. First of all, I think what you are doing 
today is really a start of what can be part of a national 
dialog on water efficiency and the nexus that we have today.
    Last year, the National Institute of Building Sciences 
Consultative Council issued a report about the water nexus, 
part of that dialog. You have a copy of our annual report, 
which we provided to you today, that talks about that and the 
continuing work of the Consultative Council.
    If we have a continued national dialog about the water 
nexus, one of the things that has to be done at this point is, 
for us to move forward, is to develop benchmark standards, by 
which we can measure use. Then, we can achieve better 
efficiencies, because now we would have something to compare 
our savings against.
    Because there is no national program now, there is no way 
that we could say that the savings that we achieve are 
universal. They could be greater in one area versus another. 
So, that is the kind of discussion that needs to occur.
    Senator Shaheen. So the importance of data that you talked 
about in your testimony?
    Mr. Green. Yes, ma'am.
    Senator Shaheen. Mr. Chaney.
    Mr. Chaney. I think, in some respects, Chairwoman Shaheen, 
we have got tools already available to us. The Uniform Plumbing 
Code, which is the American National Standard for plumbing 
system installations, and the Green Plumbing and Mechanical 
Code Supplement already provide for these high-energy-type 
systems that will help us address these water efficiency and 
energy efficiency needs, long term. Usually, that is not the 
case.
    Usually, you know, we have got to work for many years to 
develop the underpinning research that provides us with the 
ability to develop the technology. The technology is already 
there. We have got standards that address rainwater catchment 
systems, gray water recycling systems.
    In some respects, they are not widely adopted by States 
throughout the country, because some perceive green 
technologies as being too expensive. It was the same experience 
30 years ago with the solar energy, and the Federal Government 
had to provide incentives to kick-start the implementation of 
the systems. In many respects, that is what we are experiencing 
today.
    The Uniform Plumbing Code is the most widely recognized 
code in the world. More than 50 percent of the world's 
population is covered by the provisions in that document. But 
here in the United States, we can't get many States to 
understand that the technology is already there, from an energy 
and water conservation perspective.
    Senator Shaheen. Before I ask Ms. Dickinson to respond, I 
want to get Mr. Bena to comment on what you said about the 
perception that green technologies are more expensive. Because, 
clearly, PepsiCo has adopted those green technologies as a way 
to save money on your bottom line.
    Mr. Bena. I think in many ways, it still is a perception. 
What we have shown through many of the projects that we have 
implemented, like membrane bioreactors at our Casa Grande 
facility, like remote wind turbines in India that feed a 
significant portion of renewable energy to our plants, is that 
they are doable and you can make the ROIs work.
    But, once again, a very important part of that calculation, 
I think, is some relief from governments.
    The other thing I would say is----
    Senator Shaheen. Can you define that a little bit better. 
When you say some relief from governments, what are you talking 
about?
    Mr. Bena. So, some sort of incentive, either at the State 
or national level. Policy frameworks, for example, one of the 
things. Many countries where a PepsiCo operates actually don't 
have our national water adaptation plans. That is a really 
important first step, I would say, in terms of recognizing the 
water-energy nexus.
    One of the things that we are involved with through the 
Water Resources Group 2030, which is now housed in the 
International Finance Corporation, is looking at policy models 
specifically to help close a 40 percent gap, which has been 
estimated between water supply and demand globally over the 
next 20 years. So, in some respects----
    Senator Shaheen. So--I'm just going to stop you there.
    Mr. Bena. Sure.
    Senator Shaheen. Say that again, because I want to make 
sure----
    Mr. Bena. Sure.
    Senator Shaheen [continuing]. We all got that----
    Mr. Bena. Sure.
    Senator Shaheen [continuing]. Discrepancy that you are 
talking about.
    Mr. Bena. So through an organization called the Water 
Resources Group 2030, which is an entity that started in the 
World Economic Forum and is now formally housed in the 
International Finance Corporation--the sole mission of the 
Water Resources Group is to, at the invitation of governments 
around the world, help close the estimated 40 percent gap 
between water supply and water demand over the next 20 years.
    What is really interesting about having a group motivated 
by that single goal is that there is a variety of opportunities 
within that. It can be agricultural interventions, right, like, 
tensiometers, which are some of the things that we are 
developing to save water use on farm. It could be things like 
the membrane bioreactors in facilities to help reuse water and 
make sure that the water reuse doesn't pose any sort of threat 
to product quality. You have this barrage of opportunities, all 
dedicated to this single goal, which is closing that 40 percent 
gap.
    If we don't collaborate with governments, with the private 
sector, with NGO's, with academia, there is no way we are going 
to be able to hit that goal.
    Senator Shaheen. Ms. Dickinson.
    Ms. Dickinson. This is hard because you have asked for only 
one recommendation, and, you know, my head is full of----
    Senator Shaheen. You can give three.
    Ms. Dickinson [continuing]. Lots of them.
    Senator Shaheen. You know, what----
    Ms. Dickinson. So, I gave you two in the testimony, so I am 
going to give you----
    Senator Shaheen. Right.
    Ms. Dickinson [continuing]. A different one, because I 
think this is the underpinning activity that has to start 
first.
    The work they did in California shows that we don't have a 
good understanding, certainly in the rest of the country, of 
the extent of embedded energy in water supplies and treatment 
and wastewater treatment. The numbers are highly local, highly 
specific. That is the lesson we learned from the California 
data.
    So we have great numbers in California, but we don't have 
great numbers anywhere else in the country. Without having a 
good sense of what those national numbers and aggregated data 
base would produce, we don't have a good sense for how to 
emphasize it in policy or in incentives, or in continued 
regulatory work.
    So, I think that is the first step and that is probably the 
first thing I would ask for.
    Senator Shaheen. So you agree with Mr. Green, that we need 
to collect the data? Do you have a----
    Ms. Dickinson. The data Mr. Green, I believe, was talking 
about was at the building level, which I agree from an----
    Senator Shaheen. Right.
    Ms. Dickinson [continuing]. Perspective is very important. 
But I am talking about the water utility and wastewater utility 
data. They need to inventory for each of their supply sources 
what their energy intensity is, and it is different for every 
system. But the collective value of it to the Nation is the 
number we really don't know.
    EPRI did a study back, I think it was now almost 10 years 
ago, and those numbers are outdated. It is time to take a real 
look, based on the California methodology, of what our national 
numbers really are.
    From there, we can build the connections. Energy efficiency 
incentives can be then paying for water efficiency programs 
that actually yield the energy benefit it is paying for because 
you will know exactly what that will do.
    So at the Alliance for Water Efficiency, we have actually 
built a model that estimates the energy savings from water 
efficiency programs, both hot water and cold water, and 
estimates the greenhouse gas emission reductions, is largely 
based on the California-specific data that was generated, and 
it would be much better informed to have a better national 
picture if we had it.
    Senator Shaheen. Do you have a proposal for who should 
keep--start collecting that data? Are--should it be the water 
systems, and then, who should they report that to in order to 
give us a national picture?
    Ms. Dickinson. I understand you have S. 1343, the Energy 
and Water Integration Act, and that stipulates the number of 
research projects that would be undertaken by a variety of 
agencies. That would be a place where that data could be 
collected. It needs to be a study. I think requiring the 
utilities to report it would just create a 10-year process. I 
think we can actually, in the space of a couple of years, 
create a good national data base with some confidence.
    Senator Shaheen. That would allow us to model----
    Ms. Dickinson. Right.
    Senator Shaheen [continuing]. What we are using.
    Thank you.
    Ms. Dickinson. Then you can key the actual benefits of the 
incentives right to the defined energy savings that you are 
achieving.
    The reason I mention that is there--in FY12, Congress 
appropriated $811 million for energy efficiency programs in 
DOE's Office of Energy Efficiency and Renewable Energy. We 
don't have anything like that in water efficiency, zero.
    So, to me, that is a huge contrast, and you could, perhaps, 
address that in equity by having a better understanding of the 
benefits that water efficiency provides.
    Senator Shaheen. One area where Government, I think, is 
beginning to recognize the importance of this nexus and address 
it is within the military. The Navy has a major program 
underway to conserve both energy and water. I am familiar with 
it because the Portsmouth Naval Shipyard, which is on the 
border between New Hampshire and Maine--so it is an 
installation important to both of us--was the winner in their 
category because of the savings that they have made with both 
energy and water.
    But I was interested because I visited a hospital in New 
Hampshire last week, and I was looking at the efficiency 
measures that they had taken in the hospital, so very 
significant in terms of energy savings.
    But they were really struggling with how to do the water 
savings piece because of the challenges of the technology that 
was available. How to do that, particularly in a situation 
where being able to use gray water is probably not as available 
as in some manufacturing installations, for example, where that 
is a better opportunity than in a hospital setting where they 
really have to have clean water in most of their practices.
    But, can you all talk about the whole issue of gray water. 
Several of you mentioned that one of the requirements we have 
in this country is that the water has to be to a drinking water 
standard in almost all of the water that we are treating, and, 
yet, we don't really need that standard in much of those water 
uses. So, how could we begin to address that?
    Maybe, Mr. Bena, I'll start with you. Then, Mr. Green, I 
know you have some thoughts about that. But, how can we look at 
that and encourage companies to look at where they don't need 
the drinking water standard and----
    Mr. Bena. I think, Senator, we frankly, along with many of 
our peer companies and our competitors, have been looking at 
that question for years. It was really through the lens of 
efficiency and eco-efficiency savings before it had anything to 
do with sustainability.
    Frankly, we are in a somewhat unique position because we 
have a very intimate relationship with our consumers, right. 
You eat and drink. You ingest the things that we sell. As a 
result of that, it opens us up to something called a 
perception, and Lord knows--I mean, the consumers perception of 
what, you know, a treated process wastewater stream is may not 
always be based in the science that supports that.
    So, for years, on the beverage side of the business, we 
have not allowed the reuse of water, even if it meets primary 
drinking water standards, for use back in--as ingredient water 
into our beverages. It is largely based on perception, not on 
science.
    On the food side of the business, the Casa Grande plant 
that I mentioned in Arizona; the Tingalpa, Australia plant; 
soon to be a third plant in Chile is actually doing that. So 
they are now recycling process wastewater back to a level where 
they can use it with direct product contact to wash potatoes. 
Again, the perception is very different on the food side of the 
business versus beverage.
    I will say that one of the barriers to, I think, this 
exploding, in terms of seeing potential reuse opportunities, is 
the lack of very clear standards with regard to the different 
tiers of what is useable for what applications. So, as a result 
of that, companies, by and large, are developing them 
themselves.
    We learned very early on that that kind of a risk 
assessment can be so laborious and so costly that, in many 
ways, it is easier just to default to primary and secondary 
drinking water standards for water reuse, which, frankly, is 
what we have been doing.
    Senator Shaheen. Mr. Green, did you want to add to that?
    Mr. Green. I think he is very correct in that, because we 
have relied upon primary water--drinking water standards for 
use of water as a primary source.
    Gray water, we just have not accepted the use of gray water 
universally in some applications. For example, gray water, 
couldn't be used--and it is being used for reclaimed water in 
terms of watering our lawns and so forth. But we really haven't 
used it in processing, in building systems. The contaminants 
that might be in those waters that we use in, for example, 
cooling towers, because we have to treat cooling towers so we 
don't develop bacteria. So we use primary water instead of 
recycled water in those conditions.
    So we need to make sure that if we are going to use this 
recycled water, that they do meet the standard that we are 
using. So we are going to have various tiers of conditioning 
that we have to have. I think that gets back to the science of 
it, from the standpoint of how are we going to use the water, 
where is it generated from, and how can a building reprocess, 
internally, to use water.
    Those are the things that I think, when I talked about the 
dialog about how we use this water, I think that has all got to 
be contained in that discussion.
    Senator Shaheen. Thank you.
    Did either of you want to comment on that?
    Mr. Chaney. If I can add to it, Senator. The--you know, the 
water quality standards for recycled or reclaimed water are 
available. The design, installation, and maintenance standards 
for how to install the systems within buildings, they are 
available in the Green Plumbing and Mechanical Code Supplement.
    I think one of the impediments has been the infrastructure 
costs that go along with redesigning the system, because, with 
the gray water recycling system, you now have dual piping that 
has to be introduced and there is an associated cost.
    You know, in a home, you know, you may only be talking 
about $3,000 or $4,000. In a PepsiCo plant, you are talking 
literally, potentially millions of dollars. So there is a huge 
infrastructure cost that gets tied together. The standards are 
already there. That is what I was speaking to earlier.
    So, in that respect, we have the tools from a design and 
installation perspective to install and maintain these systems. 
It is a matter now of understanding what the financial 
implications are.
    Senator Shaheen. Anything to add, Ms. Dickinson?
    Ms. Dickinson. The gray water topic is an interesting one 
because gray water is largely permitted at the local health 
department level. Local public health officers have been 
permitting these systems only as pilots because there is no 
national epidemiological standard that they feel comfortable 
with, and that is an issue we need to address.
    But, again, because of the lack of funding for this issue, 
there has been a group of stakeholders, and Russ's organization 
is part of it--there's 6 organizations that have come together 
to form a plumbing efficiency research coalition, and they are 
self-funding a number of studies on plumbing and efficiency 
issues to make sure that we proceed with as best an 
understanding as possible. For example, are we getting 
blockages in drain lines.
    Gray water is on the list for study. But this coalition has 
access to zero Federal resources. We are self-funding these 
studies because we can't get access to, you know, Federal 
institutions to take a look at this issue.
    So gray water probably needs the active participation of a 
number of Federal agencies, like the Center for Disease 
Control. You know, people who need to weigh in an help make 
sure that as we roll out the standards that Russ is talking 
about, that the local public health officers develop a level of 
comfort with it. Because, right now, they don't have it.
    Senator Shaheen. Given those challenges, is--are the 
savings, they are significant enough to make it worthwhile? I 
mean, is this an area that we should be pursuing or should we--
--
    Ms. Dickinson. It depends.
    Senator Shaheen [continuing]. Be pursuing the----
    Ms. Dickinson. For indoor fixtures, because we are 
ratcheting down so much of the actual volume, the flow volume 
of all those fixtures, we're generating less and less potential 
for gray water. But, you know, I think in the commercial and 
industrial installations, it's a different--if it's--it's a 
different matter. So I, you know, leave it to the others to 
address that point.
    But we are seeing such enormous reductions in indoor water 
use domestically that the feasibility, economically, of 
retrofitting a house with a gray water system, you know, it's 
not cost effective; that feasibility isn't there.
    Now new construction will be different, especially if you 
can use a lot of that gray water outdoors. But, again, 
standards don't uniformly exist for gray water application and 
irrigation. So these are all issues we need to address.
    Senator Shaheen. Mr. Chaney.
    Mr. Chaney. Thank you, Chairwoman.
    I just wanted to make one, I think, important point with 
respect to your question. That is, when we look at water 
conservation and whether or not the infrastructure cost 
justifies the expenditure, we not only--unlike with energy, in 
water, you look at not only the water savings, but the energy 
savings that go along with it.
    So there is a dual benefit in respect to water savings. You 
always got to remember that that nexus exists, unlike in the 
reverse. That's an important distinction that we have to keep 
in mind when we consider these infrastructure costs.
    Senator Shaheen. So as we're thinking about policies--
national policies to help deal with water efficiency, the--a 
better approach might be to continue to encourage reduction in 
water use, as opposed to looking at how we can encourage more 
use of non-potable water. Is that what it sounds like you are 
all saying?
    Mr. Bena.
    Mr. Bena. I think, frankly, it's a little bit of both, and 
I think that that answer of both is going to become even more 
true as time goes on. When you think about population growth 
and population shift and the drought that you mentioned, and 
one of my co-panelists, the drought projections, I think we're 
going to have to use any and all tools at our disposal to be 
able to address the magnitude of the crises.
    Furthermore, and again, the unique perspective of a 
consumer products company like PepsiCo--I can't believe I'm 
about to say this, but it doesn't always come down to financial 
cost. In fact, we have plants operating that do not have 
attractive returns on investment because of preserving our 
social license to operate in those geographies, which, frankly, 
can be absolutely crippling to a business. Unfortunately, 
there's no easy ways, as of yet, to kind of quantitate that 
social license.
    Senator Shaheen. So, how can we support leadership in the 
private sector to address these issues? Obviously, PepsiCo has 
done an excellent job of looking at the challenges you face and 
why it is in your company's interest, both from a cost 
perspective, but also, as you point out, because of the social 
capital that you get as the result of doing the right thing in 
different places. How can you promote that kind of ethic and--
among the private sector?
    Mr. Bena. I think, Madame Chair, there have been--I have 
been at PepsiCo for 28 years. In the last, I would say, 5 
years, I have seen an unprecedented and positive increase in 
collaboration.
    It sometimes sounds pat, but it is so powerful when you can 
actually get the local government, or the National or the 
international government to collaborate legitimately with the 
private sector, and you bring NGO's to the party, and you bring 
academia to the party, the result is--you know, people use the 
word synergy, right; one plus one equals three. A lot of times 
that's overused. But with those kinds of collaborations, I 
think it's absolutely true.
    You know, we've witnessed it. We continue to witness it. 
WRG was one example; United Nations CEO Water Mandate is 
another. I mean, it's essentially under the IGES of the U.N. 
Secretary General. But it is a private sector-led consortium. 
It has opened up such collaborative opportunities with the 
private sector, with governments, with NGO's. It is--I think 
anything that we can do to kind of spur that air of collective 
action would certainly benefit all involved.
    Senator Shaheen. So, you mentioned the legislation, Ms. 
Dickinson. But how can the Federal Government be a partner in 
these kinds of initiatives?
    Ms. Dickinson. You have a Department of Energy that could 
be directed to take a look at the water side, the water impacts 
from its energy regulatory activities, and I think that would 
be an important step. You know, making sure we have good 
information would be another important step.
    But I am hearing, you know, from other panelists, too, the 
issue of incentive. You know, the incentive is important 
because, as we know, water is not priced the same way as energy 
and is largely considered almost a free resource in some parts 
of the country. So since we price the water based on the cost 
of delivery and not on its resource value itself, it--you don't 
often get that return on investment.
    So, the ability to provide an additional Federal incentive 
would be very significant, and I think there is a national 
benefit even beyond the resource issues there. Jobs are created 
by these efficiency programs. You know, we did an analysis that 
showed that if we invested $10 billion in the U.S. in water 
efficiency programs, we could create up to 220,000 new jobs in 
the implementation of these programs.
    So these are all issues that I think we need to think about 
rolling in. I know this is not the economy to be talking about 
additional Federal funding for anything. But, to date, water 
efficiency has gotten zero in terms of Federal incentives, and 
it--I think it is time to readdress that.
    Senator Shaheen. Included in that $10 billion figure, did 
you include any of the upgrades that need to be made to our 
current water and wastewater treatment systems, which obviously 
are, in many places, very out-of-date and in need of 
replacement?
    Ms. Dickinson. The $10 billion figure that I just mentioned 
was a study that we did that was solely dedicated to water 
efficiency, which is mostly end use programs, but also leak 
detection and repair that Russ mentioned in his comments. It 
was addressing the infrastructure leakage, not replacement of 
new infrastructure. That was not part of our analysis. But 
repair of leaks and rehabilitation of those leaks was part of 
that analysis.
    Mr. Green. Chairwoman Shaheen, at the risk of really 
getting the ire of my board of directors, I'd like to offer 
something to you in this discussion.
    The National Institute of Building Sciences was, in fact, 
impaneled to be this link between private sector and public 
agencies to talk about issues such as this.
    What I would propose is that there would be a program that 
would be developed to identify a national water plan that would 
bring both private and public sector organizations to the 
table, much like PepsiCo, IAPMO, other code organizations, and 
other resources, such that a report could be generated that 
could be delivered to you that might show all of the varying 
issues relative to the water nexus.
    I know that's a daunting challenge, but that's something 
that I think that the Institute was, in fact, impaneled to do. 
As I said, I will talk to my board of directors about doing 
that kind of work.
    This would not be a Government or a private sector program, 
but a collaboration between the two that would have both of the 
parties. Because if we start this discussion, the folks in the 
private sector are going to come to the table and we can bring 
some of the Federal agencies there that have various concerns: 
water quality, medical issues. We could invite all of them to 
the same kind of discussions so that it all could be compiled 
in a report.
    I would hope I would get the support of the other panel 
members to look at something like that.
    Senator Shaheen. I was just going to ask them if they 
support that idea.
    Good. Are there any final comments that any of you would 
like to make before we close the hearing?
    Ms. Dickinson. I want to thank you very much for hosting a 
hearing on this topic. This is something that is very important 
to us as an organization, and we are very, very thrilled to see 
your attention to this issue.
    Mr. Chaney. Chairwoman Shaheen, I couldn't agree more. It's 
through these types of hearings that this important information 
gets into public policy debates.
    As my co-panelists have indicated, this is something that 
really needs a lot of attention, given the major drought 
conditions that we're likely to experience as a country.
    Senator Shaheen. Mr. Bena.
    Mr. Bena. I think, Madame Chair, by addressing this 
genuinely as a nexus of water and energy, and potentially even 
adding the third component of food, it is a real opportunity 
for U.S. leadership to once again be shown.
    Thank you very much for hosting.
    Senator Shaheen. Thank you.
    Mr. Green, final point?
    Mr. Green. I would just like to say thank you very much for 
this opportunity. I think it is shown that there is, in fact, a 
great concern. That we at least share that concern, and we 
share it with you. we're hopeful, very hopeful, that as a 
result of our discussions, going forward, that we can make a 
difference.
    Thank you, again.
    Senator Shaheen. Thank you, all, very much for your 
testimony. I think you have given us a lot to think about and 
some real concrete recommendations for what might be helpful 
from the public sector, going forward.
    I think if we remember nothing from the hearing, those of 
us who have listened, certainly the 40 percent difference 
between supply and demand ought to get everybody's attention.
    So thank you, all, very much.
    [Whereupon, at 3:39 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                  National Institutes of Building Sciences,
                                   Washington, DC, August 15, 2012.
Hon. Jeanne Shaheen,
Chairwoman, Water and Power Subcommittee, Energy and Natural Resources 
        Committee.
Hon. Mike Lee,
Ranking Member, Water and Power Subcommittee, Energy and Natural 
        Resources Committee.
    Dear Chairwoman Shaheen and Ranking Member Lee:
    Thank you for the opportunity to testify before the Water and Power 
Subcommittee about water efficiency and its connection with energy. I 
commend your leadership and see this hearing as an opportunity to start 
an ongoing national dialogue to address how we efficiently utilize this 
limited resource.
    As I indicated at the close of the hearing, the Institute would be 
honored to spearhead the conversation on establishing a National Water 
Plan and hope you will support such an effort.
    I am pleased to provide the following responses to your follow-up 
questions.

    Question 1. What are the economic and job-related benefits of 
addressing aging water infrastructure and building plumbing systems?
    Answer. Numerous organizations, from the American Society of Civil 
Engineers (ASCE) to the U.S. Conference of Mayors, have identified the 
state of our water-related infrastructure as a significant issue facing 
the nation. ASCE, in a 2009 report, gave the U.S. drinking water and 
wastewater system a D- grade. Investing in improvements to both the 
water distribution system and sewer system would result in economic and 
job-related benefits. The Congressional Budget Office found in 2002 
that repairing and updating water distribution systems would require 
$335 billion over the next 20 years and an additional $300 billion to 
do the same for sewer systems.
    In addition to the jobs necessary (including everything from 
manufacturing and engineering to construction) to complete such repairs 
and updates, further benefits would accrue. The United States 
Conference of Mayors estimates that every job created through 
rebuilding water systems creates more than 3.6 jobs elsewhere and every 
dollar invested in water infrastructure adds $6.35 to the national 
economy.
    Nearly 2 trillion gallons of water are lost annually through leaks 
in water pipes. This annual loss equates to an estimated $1 to $2 
billion. These costs are incorporated into a water utility's rate 
structure and are ultimately born by their ratepayers. Eliminating such 
wasteful expenditures would result in additional funds being available 
for ratepayers to invest elsewhere in the economy.
    Incentives to conduct water audits for building plumbing systems 
can have the tri-fold benefit of creating jobs, reducing water use and 
saving building owners money. Such audits identify opportunities for 
the retrofit of existing fixtures and appliances (many of which are 
made in the United States).
    Question 2. Please describe the work that you have done with 
Federal agencies to highlight the impact that water efficiency has on 
energy efficiency. What role has the Department of Energy played in 
incorporating this data into their energy efficiency modeling for 
buildings?
    Answer. Though the Institute works with federal agencies 
extensively, it has had a very limited engagement on projects that 
address the connection between water efficiency and energy efficiency. 
The majority of our work with federal agencies has been focused on 
resolving specific needs already identified by the agency. However, the 
following activities provide examples of our work in this area:

  <bullet> Whole Building Design Guide: The Whole Building Design Guide 
        (www.wbdg.org) is the world's largest repository of buildings-
        related information. Eleven agencies support the guide and 
        reference its content for their building programs. The private 
        sector also makes significant use of this resource. Pages on 
        ``Water Conservation'' and ``Protect and Conserve Water'' 
        identify the necessity to include energy issues when examining 
        water issues.
  <bullet> Mechanical Insulation Design Guide: The Mechanical 
        Insulation Design Guide (www.wbdg.org/design/midg.php) serves 
        as a comprehensive source of information on the benefits of 
        mechanical insulation, criteria for selection, design and 
        installation of mechanical insulation systems and case studies. 
        Currently, the guide focuses primarily on the energy 
        efficiency-related benefits of mechanical insulation, but as 
        mentioned in my testimony, there are potential water 
        efficiency-related benefits as well. Future versions of the 
        guide will explore these issues in greater depth.
  <bullet> Department of Energy (DOE) National Training and Education 
        Resource (NTER) Weatherization Training Program: The Institute 
        led development of a module for NTER that focused on training 
        weatherization personnel in a virtual environment. While the 
        module is primarily focused on improving energy efficiency, it 
        does address some water-related activities, including 
        insulating pipes and water heaters. Future NTER modules could 
        be developed with a greater focus on tying water and energy 
        efficiency together.

    While the Institute is not privy to all considerations that go into 
DOE decision making and model development, the role of water efficiency 
in such activities appears limited. Generally, the codes and standards 
that address energy use for both commercial and residential buildings 
do not include a focus on water efficiency or the resultant energy 
savings. There are several specific areas in the context of codes and 
standards where a future focus on water efficiency is possible, 
including the use of mechanical insulation, the efficiency of water 
pumping and heating equipment, and the use of water for cooling of HVAC 
equipment. Putting a greater focus on the connection between water and 
energy at DOE and within other agencies (Environmental Protection 
Agency, Housing and Urban Development and National Institute of 
Standards and Technology) could provide a more holistic and 
comprehensive approach to the efficient use of limited resources. We 
would be pleased to work with this Subcommittee and the relevant 
agencies to embed water efficiency considerations in all energy-related 
discussions and vice-versa.
    Question 3. Please describe the different job opportunities that 
could be related to a concerted focus on water efficiency within the 
building sector. In addition, where is most of the equipment made that 
is used to reduce water use, or improve overall water efficiency within 
the residential, commercial and industrial sectors?
    Answer. There would be a variety of associated job opportunities 
created if a concerted effort was made to improve water efficiency 
within the building sector. Such efforts should start with identifying 
how water is currently used and opportunities to use water more 
efficiently. Water audits and commissioning efforts would require a 
cadre of skilled contractors. Once water saving opportunities were 
identified, they could be implemented by various different workers 
within the construction trades, including plumbers and landscapers. 
Both new buildings and complex retrofits aiming for improved water 
efficiency would be more likely to employ engineers and/or landscape 
architects. In addition, if a National Water Plan was advanced as a 
national priority with a concerted widespread focus, manufacturers 
would be more likely to invest in research and development to meet 
these priorities-thus increasing demand for various types of scientists 
and engineers.
    On-site treatment of wastewater or use of graywater systems also 
could become more widespread, with an expanded focus on water 
efficiency. Employment of such systems would require plumbing 
engineers, plumbers, microbiologists, sampling and laboratory 
technicians, operations and maintenance providers, and others.
    While there is limited definitive information available on how many 
plumbing products are made domestically, Plumbing Manufacturers 
International (which represents companies responsible for 80 percent of 
the plumbing products distributed and/or produced in the United States 
) reports that its membership has manufacturing facilities in 20 
states. In addition to product manufacturing, the distribution and 
retail sales of products impact state and local economies across the 
country. While not an exhaustive list, prominent companies such as 
Kohler, Moen, American Standard and Delta manufacture most if not all 
of their plumbing products in the United States. These companies and 
other U.S.-based manufacturers produce the majority of plumbing 
products used in the United States.
    Thank you again for the opportunity to testify before the 
Subcommittee. As I indicated at the end of the hearing, the Institute 
would be pleased to begin the discussion on establishment of a National 
Water Policy that could begin to address many of the issues raised by 
me and other witnesses. We will be reaching out to your offices in the 
near future to assure that you are aware of the progress of this effort 
and to get your input as it develops.
    Please consider the Institute as a resource as you address 
additional buildings-related issues.
            Respectfully submitted,
                                  Henry L. Green, Hon. AIA,
                                                         President.
                                 ______
                                 
     Responses of Daniel W. Bena to Questions From Senator Shaheen
    Question 1. You highlight the real environmental benefits that 
PepsiCo's sustainable initiatives can deliver, but could you elaborate 
on what these initiatives mean to PepsiCo from a business perspective? 
What are the reasons PepsiCo invests in these types of initiatives?
    Answer. First, and foremost, sustainability initiatives help grow 
our business and strengthen our social license to operate. They allow 
us the opportunity to help ensure PepsiCo will continue to flourish 10, 
20, or 100 years from now.
    Many companies mistakenly identify sustainability initiatives as 
something that sit apart from the business, when, in fact, these 
efforts must be considered as a part of the business, in every sense. 
This is the core principle in our operating model at PepsiCo called 
Performance with Purpose. We are guided by Performance with Purpose, 
because doing what's right for people and our planet leads to a more 
successful future for PepsiCo. It's our commitment to sustained growth 
with a focus on Performance, Human, Environmental and Talent 
Sustainability.
    PepsiCo has a diverse set of stakeholders that demand we 
aggressively pursue environmentally sustainable initiatives. These 
audiences range from the socially responsible investment consortia, 
like Ceres, collectively representing trillions of dollars in assets 
under management; to members of local, national, and international 
governments, who are interested in innovative partnerships with the 
private sector; to non-governmental organizations, like non-profits and 
academics, who understand the value that the private sector can bring 
to global crises, such as water and climate insecurity but who at the 
same time hold businesses accountable. In addition, our PepsiCo 
shareholders expect healthy financial returns on their investment in 
our stock, and the productivity gains afforded by successful 
environmental sustainability programs are an important part of this 
performance. Also, our customers are increasing their expectations of 
the environmental stewardship of their supply chain partners, of which 
PepsiCo is a part. Finally, our consumers across the world are 
consistently redefining and raising their expectations of environmental 
stewardship and the private sector's responsibility within this sphere.
    Within PepsiCo's Global Operations, we have created an internal 
approach called the ``Five S Framework,'' which summarizes the business 
reasons for aggressively pursuing an environmental sustainability 
agenda. Specifically:

          (1) Synchronize the needs of business and society
          (2) Secure our supply chain and make it more resilient
          (3) Sustain the right to operate and grow from our 
        stakeholders
          (4) Satisfy consumer demand
          (5) Synthesize new productivity opportunities

    Question 2. How does the implementation of water conservation 
programs affect PepsiCo's bottom line? How much has the company saved 
by using water efficient technologies and practices?
    Answer. If we look at resource reduction more generally, over the 
last five years, our reduction of energy, water, and packaging 
materials has resulted in over $415 Million in productivity savings. 
Approximately $200 million of this is due to water and energy 
conservation, and approximately $215 million due to package 
lightweighting that removed approximately 336 million pounds of 
material, with commensurate savings in water and fossil fuel.
    In 2011 alone, PepsiCo saved an estimated $50 million as a direct 
result of water and energy conservation practices.
    Our year-end 2011 performance of a 21 percent increase in water use 
efficiency vs. a 2006 baseline not only surpasses our 2015 goal four 
years early, but represents water conservation of 16 billion liters, 
enough to provide the entire planet with their daily drinking water 
allotment, or fill 16 Empire State Buildings. These kinds of savings 
are critical to secure our right to operate, particularly in water-
stressed areas.
    On the agricultural side of our business, our water conservation 
practices not only conserve significant volumes of water, but also help 
in improving yield-providing ``more crop per drop.''
    We should note that water conservation initiatives like those 
contained in S. 3552, the Expanding Industrial Energy and Water 
Efficiency Incentives Act of 2012, that extend tax credits to 
manufacturers who invest in water conservation and reuse are critical. 
It is these types of incentives that encourage businesses to develop 
and implement water conservation strategies.
    Question 3. Both your written and oral testimony reference ReCon. 
Would you elaborate in greater detail how this system works and how 
PepsiCo works with suppliers?
    Answer. At PepsiCo, ReCon is the name given to our four-stage 
program of global best practice tools for resource conservation, and is 
based on the old adage, ``if you treasure it, you'll measure it.'' 
Stage One focuses on granular measurement of resource use with our 
manufacturing facilities. For example, on the energy side, we estimate 
how much energy each individual motor, boiler, or heat exchanger uses 
and identify areas of opportunities and develop action plans to improve 
performance. By sharing information through our Operations network, we 
can strive to apply best practices globally. Stage Two focuses on the 
major users of resources within the plant, based on the data obtained 
from Stage One. We know that compressed air and process heating 
represent significant use of energy within our plants. The systems we 
use to treat and purify water are often themselves major consumers of 
water. Stage Three then focuses outside of our direct operations and 
extends to our supply chain. Stage Four encompasses our entire PepsiCo 
enterprise.
    We constructed the first tool several years ago for energy 
management within our plants, based heavily on tools and information 
from the US Department of Energy. ReCon Energy was followed by ReCon 
GHG, ReCon Water, and most recently ReCon Solid Waste. The power of 
these tools comes from leveraging a common approach globally. Each has 
a Profiler, a tool which quantifies a plant's resource usage streams 
and substreams, and calculates the relative values/costs of those 
streams. In the case of water, for example, our ReCon Water Profiler 
allows the plant to dissect its water use and then provides a mapping 
of the relative volumes of each stream, along with the relative values 
of each stream. The values are assigned based on local cost of incoming 
water, treatment or conditioning chemicals, energy used to heat or 
cool, and finally costs associated with discharge.
    Comparing these data allows a quantitative assessment of which 
streams offer the greatest opportunity for saving water by avoiding 
water use altogether, reducing the volume of water used, or reusing 
spent water. The Diagnostic, a series of customized audit-type 
questions, then assesses whether the plant is following best practices, 
and which opportunities exist for improvement.
    In addition, since 2008, PepsiCo has executed a strategic 
engagement program with suppliers in North America. By the end of 2011, 
the program included 50 suppliers representing over 120 facilities. 
These suppliers leveraged the ReCon program to deliver a single-year 
2.5 percent improvement in thermal energy efficiency, 7 percent 
improvement in electrical energy efficiency and an 18.7 percent 
reduction in waste-to-landfill. This corresponds to an estimated 
productivity improvement of nearly $2 million in 2011. Moreover, from 
2007-2010, during the inaugural launch of our supplier outreach 
program, suppliers demonstrated an average 22 percent improvement in 
water use efficiency, on average.
    Based on the success of the program in North America, we expanded 
the strategic engagement initiative to suppliers in South America and 
Europe in 2011. We anticipate similar results and would be happy to 
share them with the committee once they are available.
    Question 4. I'm interested to learn more about PepsiCo's 
sustainable agriculture program and the irrigation strategies employed 
to conserve water. How are these strategies assisting in water scarce 
areas and how effective would they be in drought ridden areas of the 
United States?
    Answer. PepsiCo's vision for sustainable agriculture is about 
increasing productivity and reducing risk for the benefit of our 
farmers and supply chain. Solutions to agricultural efficiency and 
productivity issues resulting from our environment demand that we ask 
and answer tough questions such as the impact of climate change.
    We know we can effect change with our growers, because we have 
direct touch-points with them. For example, in 2010, we began the 
Sustainable Farming Initiative, a program that defines standardized 
metrics for sustainable agriculture and can be applied to any country, 
any crop, any size land base and for any farmer, large or small. It 
consists of establishing best practices within three pillars: 
environmental, social and economic. We started identifying 
sustainability indicators within the environmental pillar in 2011. 
Since then, nine indicators have been identified, including: soil, 
water, air, energy, agrochemicals, nutrients, GHGs, waste and 
biodiversity. Detailed criteria and best practices are being developed 
to address each one of the nine indicators. We are in the process of 
developing the social and economic pillars, which include identifying 
indicators covering health and safety, employment practices and working 
conditions, among others. We expect to launch the complete program 
globally in 2013 and are striving for our growers and agricultural 
suppliers to be compliant with the program by 2020.
    Even more basic, and a core part of our Sustainable Agriculture 
Policy, the Sustainable Farming Initiative, and our day-to-day 
agricultural practices in the field with our growers, is resource 
conservation.
    We continue to invest in a portfolio of water-conserving 
technologies and techniques here in the United States and around the 
world, both through our business and through our philanthropic arm, the 
PepsiCo Foundation. For example, in addition to evolving our irrigation 
practices from traditional flood irrigation, to central pivot, and 
ultimately to drip, we developed ``i-crop'' technology in partnership 
with the University of Cambridge in the UK. I-crop uses a variety of 
climatic sensors, GPS mapping, and root-zone water measurements, 
coupled with ``cool farm software,'' to deliver precisely the amount of 
water needed to the root zone, precisely when it is needed.
    The PepsiCo Foundation, in partnership with the Columbia University 
Earth Institute in New York City, developed a low-cost device called a 
tensiometer, which is a soil moisture probe currently being tested by 
thousands of farmers in India, and which is showing water savings in 
excess of 20 percent over traditional methods.
    In China, PepsiCo is one of the largest agriculture-related 
enterprises, investing more than RMB 200 million (equivalent to more 
than USD 31 million) in local agricultural development. These 
investments, supported by PepsiCo's proven expertise in crop plantation 
and irrigation, have benefited more than 10,000 rural Chinese 
households and created a win-win solution for local farmers and the 
company. Examples include:

  <bullet> A PepsiCo pilot farm in Inner Mongolia has used advanced 
        irrigation technologies to transform desert into fertile potato 
        farmland.
  <bullet> The average yield of PepsiCo's potato farms in China has 
        increased to 45 tons per hectare, meeting the global standard.
  <bullet> PepsiCo has achieved up to 50 percent reduction in water 
        consumption in potato cultivation by implementing advanced 
        irrigation techniques.

    The use of drip irrigation techniques in the cultivation of 
potatoes in India has the potential to reduce on farm water usage by as 
much as 50 percent. In addition to the considerable water savings, drip 
irrigation helps to increase yields without additional labor 
requirements, which results in overall cost savings. From 2008 to 2011, 
PepsiCo developed and expanded the drip irrigation technique to include 
2,787 acres in four states (Haryana, Maharashtra, Gujarat and 
Karnataka), with plans to reach 4,000 acres in 2012. Farmers are 
provided with low-cost loans to cover costs, and PepsiCo has 
commitments to buy back potatoes as part of its supply chain.
    We continue to leverage these approaches here in the United States 
across our supply chain. Over a ten-year period, our Frito-Lay business 
in the US reduced on-farm water usage by 715 Million gallons/year, 
reduced on-farm fuel usage by 250 thousand gallons/year, and reduced 
on-farm fertilizer use by 3.3 Million pounds/year.
    Question 5. With different PepsiCo facilities across the country, 
how do the various water utility practices influence your efforts to 
conserve water? What have been the most effective programs?
    Answer. As local businesses, we know the unique aspects of our 
communities, particularly as it relates to local water resources. In 
the United States, close to 100 percent of our facilities support 
local/municipal infrastructure systems as an industrial supply 
customer. In virtually every case, our plant production teams establish 
relationships with the municipality early in the process, so that we 
can be alerted of any issue that may impact supply. Similarly, we alert 
them of any unusual conditions which might impact their operations on 
the raw water side, or with regard to wastewater treatment.
    This collaborative relationship between utilities and water users, 
like PepsiCo, should be considered among the most effective best 
practices.
    The current drought experienced throughout the United States 
provides an excellent example. Like any customer, drought impacts us, 
and we generally cease any non-critical water use consistent with 
drought management. In addition, we work with other companies in the 
beverage sector, through the Beverage Industry Environmental Roundtable 
(BIER), to develop drought preparedness guidelines for our sector. It 
is during these times that a solid relationship and frequent dialog 
between utilities and its users is advantageous.
    It is worth noting that one of the trends that we have witnessed, 
particularly with smaller utilities, is that when our manufacturing 
facilities reduce water usage in any given year, it is not uncommon for 
the water rates to increase the next year commensurate with the water 
reductions we have effected. This is understandable from the 
perspective of sustaining the utility operations budget, but, at the 
same time, can be counter-incentivizing to further incremental resource 
reduction by the user.
    Alternatively, higher water prices could actually help justify 
acceptable returns on investments (ROI) for water conserving 
technology, like various forms of membrane treatment. So, accurate 
valuation of water across the board and across all industries needs 
further assessment.
    Further exploration into solutions to these scenarios would be of 
benefit to both the utilities and the end users in the long term.
        Response of Daniel W. Bena to Question From Senator Lee
    Question 1. Please describe the areas that should be further 
researched to better understand interconnectedness between water and 
energy.
    Answer. The hearing explicitly made the case that it takes energy 
to treat and move water, and it takes water to produce energy. Yet, too 
often, water use efficiency and energy efficiency are addressed 
separately. Admittedly, significant and positive impact can be achieved 
by pursuing efficiency improvements in water or energy individually. 
However, there is a growing trend in the environmental arena to better 
understand the true synergy of addressing water and energy use 
together-the so-called ``water:energy nexus.''
    We suggest that a third leg should be added to this discussion-food 
security. If interested parties can begin to address the water: energy: 
food nexus holistically, using a ``systems approach,'' we believe that 
significant impacts can be realized.
    For example, in certain regions of the United States, water tables 
are declining. A farmer's response-or that of the utility that provides 
water to the farmer-is understandably to dig a deeper well. At just 
over eight pounds per gallon, the deeper the well, the more energy it 
takes to abstract that water used to grow the crop. At some point, 
additional pumps and pipelines will be needed to keep agricultural 
fields and cities hydrated almost certainly increasing costs to both 
water and energy use and thus increasing the cost of the food grown. 
Similarly, just as more energy is needed to abstract water, more water 
is often used to produce that energy. This in turn makes less water 
available for cultivation and places an even greater burden on our 
farms.
    More research is needed to better understand the innovative methods 
needed to encourage mutually beneficial conservation efforts, i.e., 
growing a food crop, using less water, and conserving energy (or 
increasing the use of renewables). Too often, attention is directed 
toward rewarding a single aspect of the nexus, such as energy 
efficiency, despite the fact that water conservation plays an equally 
important role.
                                 ______
                                 
                             Alliance for Water Efficiency,
                                      Chicago, IL, August 15, 2012.
Hon. Jeanne Shaheen,
Chairman, Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
Hon. Mike Lee,
Ranking Member, Water and Power Subcommittee, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Shaheen and Ranking Member Lee:
    The Alliance for Water Efficiency is a broad-based stakeholder non-
profit organization composed of 365 water supply utilities, business 
and industry stakeholders, environmental groups, and government 
agencies committed to promoting the efficient and sustainable use of 
water throughout North America. We believe that conserving water and 
using it efficiently is critical to ensuring that water resources are 
available now and in the future to support healthy economies, 
ecosystems, communities, and individuals.
    The Alliance was pleased to appear before the Subcommittee on Water 
and Power on July 25, 2012 to testify on our work on water and energy 
nexus issues. We have received follow-up questions from you, and we are 
pleased to provide answers as indicated below.
    If we can provide any further information, please do not hesitate 
to contact us.
            Sincerely yours,
                                        Mary Ann Dickinson,
                                                 President and CEO.
    Responses of Mary Ann Dickinson to Question From Senator Shaheen
    Question 1. You mention the relationship between energy and water 
and the amount of energy embedded in water and wastewater treatment. 
Why is there such a wide range in the amount of embedded energy and 
what causes the disparity?
    Answer. The amount of energy consumed by drinking water pumping and 
treatment, as well as wastewater pumping and treatment, varies 
significantly from water system to water system. The amount of energy 
needed varies because of physical constraints such as topography; 
technical constraints such as type of pumps and type of treatment 
processes; and the length of distances over which water needs to be 
pumped. It further varies by type of water supply source: surface water 
withdrawal; imported or transferred water; pumped groundwater; recycled 
water; or desalinated water. Each supply source will have a 
``signature'' of how much energy is used between system input and 
eventual discharge, and it is essential to know the total energy 
signature in order to understand which supply sources use the most 
energy.
    Beginning in 2005, the California Energy Commission conducted 
detailed work that showed the range of embedded energy in water and 
wastewater in California is between 2,000 kWh to 20,000 kWh per million 
gallons (MG) of water produced. The figure* below shows where energy is 
used in each phase of the pumping and treatment cycle. The most energy-
intensive range is in water treatment, sometimes going up to 16,000 
kWh/MG. The type of treatment is also a factor, with microfiltration 
being typically the most energy intensive treatment process.
---------------------------------------------------------------------------
    * All figures have been retained in subcommittee files.
---------------------------------------------------------------------------
    Conveyance of water over long distances is similarly a high energy 
user, and thus the supply source is important too, with its own 
embedded energy signature. In my home community of Lake Arrowhead, 
California, the amount of energy needed for three different water 
supply sources varies greatly. When water is withdrawn and consumed 
from Lake Arrowhead itself, the embedded energy value of the pumping 
and treatment, including wastewater collection and treatment, is around 
8,984 kWh/MG, based on an examination of the electric bills. When the 
water comes from groundwater wells, the embedded energy number is not 
too dissimilar: 8,873 kWh/MG. But when the Lake Arrowhead Community 
Services District has to buy additional water from California's State 
Water Project, the embedded energy number skyrockets to 24,991 kWh/MG. 
Clearly the imported water--which has to be pumped great distances over 
high elevations--is a very serious energy consumer as well as extremely 
expensive water.
    Thus, it is critical that each water system compute its embedded 
energy numbers for all its pumping and treatment types, as well as for 
each one of its water supply sources, to see if there is high 
variation. Once this information is known, efficiency programs can be 
designed to optimize utility operations and to minimize the amount of 
energy needed for the highest energy-using supply source. Table 2 in my 
testimony gives a summary of all the various energy inputs that came 
out of the California research. This information is what needs to be 
aggregated and computed for each water system.
    The high variability in embedded energy in drinking water and 
wastewater systems is a significant national issue because very little 
data exists on the regional variations across the country. It is 
imperative that we gather better information on the amount of energy 
being consumed by water and wastewater utilities, as well as their 
customers, so that appropriate efficiency programs are designed and 
implemented.
    Question 2. I am interested in the work of the 75 organizations 
involved in the water-energy arena to identify recommendations for 
national and state officials in the areas of policy and research. What 
are some of the recommendations from the Blueprint for Action that 
might be relevant for this committee?
    Answer. The Blueprint for Action\1\ included policy as well as 
programmatic recommendations for moving the water-energy nexus issue 
forward. There were nine specific policy recommendations that we 
believe would be relevant for this committee's consideration and that 
we are hoping will be the subject of future legislation:
---------------------------------------------------------------------------
    \1\ Addressing the Water-Energy Nexus: A Blueprint for Action and 
Policy Agenda, May, 2011. Alliance for Water Efficiency and the 
American Council for an Energy Efficient Economy. http://
www.allianceforwaterefficiency.org/blueprint.aspx

          1. Encourage the implementation of regulatory structures and 
        incentives that reward water and energy efficiency, including 
        by establishing mechanisms to recognize the benefits of water 
        and energy savings by programs, and consider setting water-
        saving targets for utilities, just as many states have energy-
        saving targets for utilities.
          2. Encourage the Department of Energy to implement appliance 
        and equipment standards on water-using appliances and 
        equipment, and provide appropriate credit for direct and 
        indirect water impacts in setting performance standards.
          3. Develop, enact, and implement building codes that 
        recognize water and energy efficiency.
          4. Develop and propose specific energy-water elements to add 
        to existing federal legislation, such as the Water Resources 
        Development Act, the Federal Water Pollution Control Act, the 
        Safe Drinking Water Act, the Energy Policy and Conservation 
        Act, and the National Energy Conservation Policy Act.
          5. Develop and propose tax incentives for water and energy 
        efficiency, preferably performance-based.
          6. Direct and provide resources to such federal bodies as the 
        Energy Information Administration, national laboratories, the 
        Federal Energy Regulatory Commission, the Census Bureau, the 
        Department of Interior, and the Environmental Protection Agency 
        to collect water and energy end-use data from across sectors 
        and to extend existing and future energy policy analyses to 
        include water impacts where possible.
          7. Identify a platform enabling energy and water regulatory 
        and governance bodies to communicate with each other readily.
          8. Encourage increased collaboration among federal, state, 
        and local agencies in such areas as the integrating of water 
        and energy efficiency through the use of grant funding, 
        research, regulation, and technical assistance from the 
        Department of Energy, the Environmental Protection Agency, the 
        Department of Agriculture, and the National Oceanic and 
        Atmospheric Administration.
          9. Require coordination between energy and water regulatory 
        authorities when considering siting of new power plants or 
        significantly expanding existing power plants.
     Responses of Mary Ann Dickinson to Questions From Senator Lee
    Question 1. Please describe the energy and water savings directly 
tied to repairing aging water infrastructure.
    Answer. With water supply having so much embedded energy in it 
because of pumping and treatment, a utility that leaks a large amount 
of treated water out of its distribution system is not only losing 
money but losing valuable energy. This issue was studied by the 
California Public Utilities Commission in 2007-2009, when they 
appropriated $10 million to fund various water-efficiency pilot 
programs across the state. Nine pilot programs were jointly conducted 
between electric and water utilities, and a third-party contractor was 
hired to evaluate the results. The purpose of the pilots was to 
determine how much energy credit could be given for energy saved in 
``cold'' water conservation programs, and what the potential for long-
term energy savings would be if these water efficiency programs were 
adopted on a more widespread basis.
    After three years of study, the results showed that of the nine 
pilot programs, the pilots with the highest energy savings were 
distribution system leak detection and low-income high efficiency 
toilets. The distribution system leak detection pilot was run by 
Southern California Edison in three demonstration communities, and the 
results showed that this particular program appeared to offer the 
greatest energy savings potential (at relatively low cost) out of the 
other nine pilot programs. In particular, the energy savings documented 
in this report are based on leaks that were actually repaired during 
the program period. The potential achievable water (and energy) savings 
were estimated to be much higher by the program implementation 
contractor.\2\ The numbers from the study are as follows:
---------------------------------------------------------------------------
    \2\ http://www.energydataweb.com/cpucFiles/33/
FinalEmbeddedEnergyPilotEMVReport--1.pdf

          1. The total amount of economically recoverable leakage for 
        the three demonstration communities ranges from 60 to 116 
        million gallons per year.
          2. The total amount of embedded energy saved in the three 
        systems-- from repaired leaks--was 178,143 kWh.
          3. The total amount of potential energy that could be saved 
        with proactive leak detection and management in the three 
        communities is as high as 583,277 kWh.

    Although this is only one study in one state, it shows the 
incredible promise presented by repairing aging leaking infrastructure. 
To date there is no federal program incentivizing this important 
activity.

    Question 2. Please describe the relationships that are needed 
between water and electric utilities to better understand the water 
energy nexus.
    Answer. The Alliance for Water Efficiency and the American Council 
for an Energy Efficient Economy decided to partner on the Blueprint for 
Action because there was no existing relationship of any kind between 
water and electric utilities to explore the water-energy issues. We 
wanted to begin a dialogue and start implementing joint projects that 
would get both sets of utility mangers out of their respective silos. A 
clear beginning is conducting joint research, but a longer term 
relationship on actually implementing joint efficiency programs is also 
needed.
    The specific steps that we believe need to be taken to forge a good 
relationship are as follows:

          1. Increase the level of collaboration between the water and 
        energy communities in planning and implementing programs.
          2. Achieve a deeper understanding of the energy embedded in 
        water and the water embedded in energy.
          3. Learn from and replicate best practice integrated energy-
        water efficiency programs.
          4. Integrate water into energy research efforts and vice 
        versa.
          5. Separate water utility revenues from unit sales, and 
        consider regulatory structures that provide an incentive for 
        investing in end-use water and energy efficiency.
          6. Leverage existing and upcoming voluntary standards that 
        address the energy-water nexus.
          7. Implement codes and mandatory standards that address the 
        energy-water nexus.
          8. Pursue education and awareness opportunities for various 
        audiences and stakeholders.

    The Blueprint for Action\3\ report goes into more detail on each of 
these areas.
---------------------------------------------------------------------------
    \3\ Addressing the Water-Energy Nexus: A Blueprint for Action and 
Policy Agenda, May, 2011. Alliance for Water Efficiency and the 
American Council for an Energy Efficient Economy. http://
www.allianceforwaterefficiency.org/blueprint.aspx
---------------------------------------------------------------------------
                                 ______
                                 
     Responses of GP Russ Chaney to Questions From Senator Shaheen
    Question 1. You mention that the Federal government should provide 
incentives to help local communities adopt and enforce green codes. How 
do you envision such incentives working to improve water and energy 
efficiencies?
    Answer. Here in the United States, we develop our codes and 
standards from the bottom up, meaning that the best subject matter 
experts, along with the stakeholders that are most affected by the 
contents of our codes and standards, get together, and in a transparent 
and consensus based process we develop incredibly comprehensive 
provisions that make up our construction codes and our green codes.
    However, regardless of how well codes are developed and provisions 
that pertain to energy and water efficiency are deliberated in the 
process, they will have no impact at all unless updated codes are 
adopted and rigorously enforced at the applicable State or municipal 
level.
    Currently, many jurisdictions are delaying the adoption of codes 
because we lack the agreed upon metrics to articulate a return on 
investment (ROI) for implementing updated codes. Hence, delaying the 
adoption of updated codes is often erroneously viewed as a cost 
avoidance measure.
    The Federal government can assist by having the Department of 
Energy review updated codes and provide credible guidance in terms of 
ROI and also articulate the peripheral ecological benefits of the 
energy saving provisions contained in the updated code or voluntary 
green code. Such information will provide all stakeholders at the 
municipal level with the factual information they need to fully 
understand the financial tradeoffs and benefits of adopting codes that 
contain water and energy efficiency provisions.
    This would be particularly effective for green codes that address 
water efficiency as the incorporation of water efficient technologies, 
such as high efficiency plumbing fixtures and fittings and solar 
thermal technologies can be installed with minimal capital outlay, 
especially in new construction, yet provide water and energy 
efficiencies for the life of the building.
    In addition, due to the economic squeeze that many municipal 
governments are being challenged with, they are often cutting back on 
the thorough inspection and enforcement of energy efficiency 
provisions, and focusing enforcement inspections on the life safety 
elements of the code only (fire safety, egress provisions, etc.).
    Here, the Federal government can assist by providing financial 
incentives to municipalities for hiring properly trained code 
enforcement inspectors to staff levels where water and energy code 
provisions can be properly inspected and enforced.
    Question 2. In your comments, you alluded to the need to support 
research for less invasive sub-metering technologies. Can you please 
elaborate on this and say why this is important in terms of yielding 
energy savings through water efficiency?
    Answer. IAPMO currently has a Memorandum of Understanding with the 
American Society of Plumbing Engineers (ASPE) to arrive at updated pipe 
sizing requirements for buildings that take into account the new, lower 
consumption levels of today's plumbing fixtures and appliances, which 
are much lower than the consumption levels of those devices that were 
made as recently as 20 years ago.
    This gives us a huge opportunity to reduce the diameter of the 
pipes in our buildings, which would provide essentially free water and 
energy savings by reducing the volume of water between the water 
heaters or boilers in a building and the point of use. While this 
sounds easy to do on the surface, what we have learned in our efforts 
with ASPE is that in order to accomplish this goal, we need to 
understand how water is being used in various building types. Armed 
with this knowledge, we can then arrive at the correct statistical 
formulas to determine the most efficient pipe sizing requirements for 
buildings in our codes.
    The statistical formula currently used in our codes were developed 
by Dr. Roy Hunter who worked at the National Bureau of Standards, now 
the National Institute of Standards and Technology (NIST) back in the 
1920's through the 1940's. We again need the leadership and brain power 
of the Federal Government in assisting with this complex issue. Every 
building that is constructed employing smart-pipe-sizing plumbing 
systems will yield a lifetime of water and energy savings with zero 
added cost.
    IAPMO stands ready to work with the Federal government and other 
stakeholders to gain a better understanding about how water is being 
used in different building types so that we can make our plumbing 
systems efficient as possible while maintaining health and safety and 
ensuring system efficacy.
    Question 3. You referred to ``smart'' water in your testimony. What 
sort of similarities do you see between a smart water infrastructure 
and smart grid and how can IAPMO assist in a smart water initiative?
    Answer. As plumbing code developers, we are certainly not experts 
regarding the technical merits or capabilities of a smart electrical 
grid. However, in our view, there are conceptual similarities in 
functionality that can be shared. Specifically, a smart water 
distribution system would contain sensors to alert the owners of the 
system to a catastrophic leak or failure and allow for the isolation of 
such a failure in order to minimize the disruption of service to users, 
minimize water waste and also mitigate the potential for contaminates 
to infiltrate the whole distribution system.
    It is also important to note, that as code developers, our area of 
jurisdiction and expertise is contained to plumbing systems in 
buildings, and not to water distribution systems. Leak detection 
technologies can also be used in building plumbing systems to provide 
real time feedback to building managers, enabling the repair of 
otherwise insidious leaks that not only waste water and energy but can 
also damage other building elements if left unrepaired.
    IAPMO can assist by working within our compliance based code 
development process to help codify such smart technologies and, 
assuming such provisions are adopted by our members, require their 
installation in new construction.
    Question 4. How can IAPMO collaborate with major water utilities to 
provide a unified water efficiency and conservation message to the 
American public?
    Answer. When we consider our looming water crisis, it becomes 
apparent that much is needed in the way of public education and 
awareness. As mentioned during the hearing, we need to initiate a 
candid discussion about water with the American consumer.
    IAPMO stands ready to work with water utilities across the country, 
both large and small, and with Federal government entities such as the 
EPA WaterSense division, towards the development of consumer awareness 
and education materials that can be included in utility bill and made 
available on the internet.
    Our role in such an effort would be to advise home owners and 
commercial building owners regarding water efficiency technologies that 
can reduce consumption and save them money, while also making sure that 
these technologies are installed in a manner that ensures safety and 
meets plumbing code provisions.
       Responses of GP Russ Chaney to Questions From Senator Lee
    Question 1. Please describe the similarities and differences 
between the water ``grid'' and the electric grid. How are these two 
connected?
    Answer. As we mentioned in our response to one of Senator Shaheen's 
questions, as plumbing code developers, we are certainly not experts 
regarding the technical merits or capabilities of a smart electrical 
grid. Having said that, as we gain better understanding of the nexus 
between water and energy it becomes increasingly clear that efforts to 
foster water efficiency also yield surprising energy efficiencies and 
vice versa.
    Question 2. What are the unknowns between the interconnectedness of 
the two that could be important for policy makers at the local, state 
and federal levels?
    Answer. Currently, we lack data regarding exactly how much water is 
being used to generate electrical power, and conversely, how much 
energy is utilized in the treatment, distribution, heating and waste 
treatment of water. Only the State of California has calculated how 
much energy is embedded in these water based processes. Simply 
communicating and illustrating what we do know about this 
interconnectedness to decision makers at all levels of government, and 
keeping them appraised of findings as additional studies are conducted, 
such that they can better appreciate the ``low hanging fruit'' of 
energy savings through water efficiency will yield very significant 
water and energy savings.
    Question 3. Could you please elaborate on the process you undertake 
to get accreditation for your codes?
    Answer. IAPMO is accredited by the American National Standards 
Institute (ANSI) to develop the Uniform Plumbing Code (UPC), Uniform 
Mechanical Code (UMC), Uniform Swimming Pool, Spa and Hot Tub Code 
(USPC), and the Uniform Solar Energy Code (USEC) as American National 
Standards. Accreditation by ANSI means that IAPMO utilizes consensus 
code development processes which have been determined by ANSI to 
contain all of the essential requirements for due process which ANSI 
mandates be present in order to designate the document as an American 
National Standard. These essential requirements include, but are not 
limited to, the right that any person (organization, company, 
government agency, individual, etc.) with a direct and material 
interest in the subject matter be permitted to participate in the 
development of the document by:

          (a) expressing a position and its basis;
          (b) having that position considered; and
          (c) having the right to appeal.

    ANSI also requires that the development process provide for:

  <bullet> Openness--participation shall be open to all persons who are 
        directly and materially affected by the activity;
  <bullet> Lack of dominance--the standards development process shall 
        not be dominated by any single interest category, individual or 
        organization; and
  <bullet> Balance--the standards development process shall have a 
        balance of interests.

    The aforementioned IAPMO codes are developed utilizing committees 
of technical subject matter experts and others who debate and discuss 
the subject matter until the committee reaches consensus (not less than 
two-thirds of voting members). The committees are balanced, open and 
the development process is not dominated by any single interest 
category. All members of the public are welcome to participate in the 
process. The committee considers and provides a substantive response to 
all comments submitted by the public.
    In 2011, after conducting an extensive audit, ANSI determined that 
IAPMO had achieved a consistent record of successful voluntary code 
development of the aforementioned codes and ANSI conferred ``audited 
designator'' status upon IAPMO thereby empowering IAPMO to designate 
the aforementioned codes as American National Standards without the 
need for additional review by the ANSI Board of Standards Review.
    Question 4. Are you aware if the Department of Energy has made 
water a consideration in any energy related regulations?
    Answer. Largely, the Department of Energy (DOE) has long ignored 
water and/or the imbedded energy within water as a component of its 
regulations. In working with many DOE staff, we have heard them state 
on many occasions that they are directed to look at direct energy, not 
indirect energy. Many forward-thinking staff at DOE have stated their 
desire to look at other energy savings potential, such as water, but 
there has not been much movement in that direction. We do know that 
agency staff have claimed they do not have the authority needed from 
congress to look at the imbedded energy within water.
    Question 5. In 2010, Battelle Memorial Institute released a study 
on the energy efficiency impacts of hard water. The study concluded 
that scale formed by hard water can lead to as much as a 24 percent 
loss of energy efficiency in water heaters and that treatment with 
water softeners preserved the original factory efficiency ratings of 
water heaters over a 15-year lifetime. Are you familiar with this study 
and its conclusions?
    Answer. The WQA / Battelle study was provided to our Green 
Technical Committee and was considered in the development of certain 
provisions contained in the IAPMO Green Plumbing and Mechanical Code 
Supplement. As such, yes, we are familiar with this study and its 
conclusions.
    Question 6. Based on these types of results and the potential 
impact of hard water on energy efficiency, do you believe that reducing 
or eliminating scale is an important factor in allowing appliances such 
as water heaters to maintain their Energy Star ratings?
    Answer. Clearly, reducing the buildup of scale in water heaters 
impacts the efficiency of water heaters whether it is an Energy Star 
labeled product or not. Scale also robs energy and water efficiency by 
clogging plumbing fixture fittings such as faucets and showerheads. 
However, the Green Technical Committee did find cause for concern with 
the WQA / Battelle study in terms of the water quality of the test 
water selected to conduct this study and with the recommendations that 
water softeners should be installed even in areas of very low water 
hardness levels.
    We know that water softeners can reduce scale and thereby help 
maintain efficiency levels in water heaters. However, there is a 
downside to water softeners that needs to be taken into account as 
well. Most require the addition of salts. Backwashing these systems 
consumes water and produces a brine that increases salinity levels in 
wastewater and increase the utility costs to treat the water. As a 
result, some wastewater utilities are currently not allowing the 
installation of salt consuming water softeners in their jurisdictions.
    It is interesting that you bring up this topic, Senator, as this is 
a prime example of the type of water efficiency research that is 
needed. We currently lack the metrics to arrive at an accurate 
accounting of these types of tradeoffs and determine where it makes 
sense to install water softeners (and similar technologies) and where 
they may cause more harm than good.
    Question 7. It is understood that IAPMO is currently working with 
industry to develop a standard test procedure for ant-scale 
technologies. Such a test procedure would greatly enhance the 
opportunities for these technologies within federal energy efficiency 
programs. Can you tell us what the status is of this effort and when 
you anticipate the test procedure being finalized?
    Answer. Yes, Senator, we are happy to report that there has been a 
high level of interest in this IAPMO initiative. We are currently 
developing IAPMO Standard Z601, Scale Reduction Devices. This standard 
is currently being vetted by the IAPMO Plumbing Standards Committee. It 
is expected that the test protocol validation and subsequent formal 
approval of the standard will take about one year; therefore, the Z601 
standard should be published in the early fall of 2013.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                International Code Council,
                                   Washington, DC, August, 8, 2012.
Hon. Jean Shaheen,
Chairman, Senate Energy and Natural Resources Committee, Subcommittee 
        on Water and Power, 304 Dirksen Senate Office Building, 
        Washington, DC.
Hon. Mike Lee,
Ranking Member, Senate Energy and Natural Resources Committee, 
        Subcommittee on Water and Power, 304 Dirksen Senate Office 
        Building, Washington, DC.
    The International Code Council is pleased to address the critical 
issue of the energy and water efficiency relationship. We wish to 
extend our appreciation to the Senate Energy and Natural Resources, 
Water and Power Subcommittee, and to Chairman Shaheen and Ranking 
Member Lee for providing the opportunity to comment.
    The International Code Council (ICC) is a member-focused 
association dedicated to helping the building safety community and 
construction industry provide safe and sustainable construction. We do 
so through the development of model building codes and standards used 
in the design, build and compliance process nationwide. Most U.S. 
communities and many global markets adopt ICC's International Codes (I-
Codes). Presently, all fifty states and the District of Columbia have 
adopted the I-Codes at the state or jurisdictional level. Federal 
agencies including the Architect of the Capitol, General Services 
Administration, National Park Service, Department of State, U.S. Forest 
Service and the Veterans Administration also enforce the I-Codes for 
the facilities that they own or manage.
    The relationship between water and energy use has long been 
recognized in many sectors, yet in the United States, we have 
traditionally addressed each topic individually. There are three 
primary categories for this energy/water relationship, each with 
different stakeholders and drivers.

  <bullet> Centralized Water Supply and Treatment
  <bullet> Water Point of Use Applications
  <bullet> Energy Recovery from Wastewater

Centralized Treatment
    Since the 1950's an increasing percentage of Americans and 
businesses receive water supplies and wastewater treatment from 
centralized, permitted facilities. Energy is consumed in the transport 
of water to the treatment facility, in the treatment of the water 
itself, and in the delivery of potable water to the customer. The 
amount of energy consumed in transport will depend significantly on the 
terrain and distance between the source and the water treatment 
facility. This accounts for the fact that the California State Water 
Project, which pumps water over the Tehachapi Mountains to users in the 
southern part of the state, is California's largest power consumer. 
Notably, future energy consumption for transporting water is likely to 
be even higher as population centers are forced to reach farther afield 
for sources of water. Treatment too draws significant amounts of 
energy, and future energy consumption is also likely to rise as water 
purveyors are forced to use lower quality sources. One extreme in this 
regard is desalination, which consumes significant quantities of energy 
using current technology.
    Reduced demand for water resulting from water efficiency measures 
can provide immediate energy savings from both transport and treatment. 
Even modest water efficiency measures implemented on a community scale 
through green codes like ICC's International Green Construction Code 
(IgCC) can produce measureable energy savings for water purveyors. They 
can also delay or eliminate the need for the construction of expensive 
new treatment and pumping infrastructure.
    Opportunities exist for similar savings by utilizing more 
decentralized water sources and treatment. This involves the use of 
alternate onsite water sources such as collected rainwater, graywater, 
and HVAC condensate to offset or eliminate the need for conventional 
centralized supplies with their embedded energy. While these systems 
are promising, care must be taken to protect the health and safety of 
the consumer through the use of codes like the IgCC and science-based 
standards. Research and development is also needed to ensure that the 
implementation of alternate onsite systems community wide does not 
consume more energy than a comparable centralized system.
Point of Use Applications
    It is the end use of water that determines the overall demand 
within a region, and therefore sets the total energy consumed by a 
centralized treatment system. Therefore, the less water consumed by 
homes, office buildings, industry, and agriculture, the less energy 
that will be consumed by water purveyors treating and pumping water.
    There are many applications where reductions in water consumption 
directly reduce energy demand at the point of use. The majority of 
public supply water is delivered to commercial and residential 
buildings, and ICC's model codes provide the basis for the construction 
of almost all of these buildings in the United States.
    As a result, ICC's model codes and standards are uniquely 
positioned to provide immediate and measurable savings when implemented 
in jurisdictions. For example, reductions in hot water consumption 
carries with it proportional energy savings, all other things being 
equal. If a traditional showerhead is replaced with a WaterSense 
certified showerhead consuming 20 percent less water, as required in 
the IgCC, 20 percent less energy is required to heat the water 
(assuming the duration and temperature of the water stay the same). 
Within ICC's family of model building codes, such provisions aimed 
jointly at water and energy appear first in the base codes, like the 
International Building Code (IBC), International Residential Code(IRC), 
International Plumbing Code(IPC), and International Mechanical 
Code(IMC). High-performance model codes, such as the International 
Energy Efficiency Code (IECC) and the International Green Construction 
Code (IgCC), can provide even more savings.
    Within ICC's family of codes, provisions that save water and energy 
can be found for:

  <bullet> Bathing water (showers/baths)
  <bullet> Pre-rinse spray valves
  <bullet> Evaporative cooling towers
  <bullet> Hot water distribution plumbing systems
  <bullet> Dishwashers
  <bullet> Clotheswashers
  <bullet> Humidification systems
  <bullet> Carwash systems

    Notably, the development of codes and standards for many of these 
technologies are evolving rapidly. ICC's code process is designed to 
reliably and predictably update all of our model codes every three 
years, to incorporate new technology, recognize cost saving techniques 
and systems, and to adopt alternative methods of achieving safe and 
sustainable buildings. But the codes have no impact on buildings, or on 
water and energy use, unless they are adopted and enforced by the state 
and local jurisdictions with authority to regulate building 
construction.
    Therefore the importance of communities adopting updated and 
current building codes cannot be overstated. Even relatively recent 
editions of the codes do not contain provisions for many new water and 
energy innovations. Failure to update codes may leave communities ill-
prepared to safely implement new technologies and systems and the 
benefits they can bring when properly implemented. Both for financial 
reasons, and sometimes due to the opposition of groups who want to 
avoid the first cost of some code requirements, some jurisdictions have 
delayed adopting current codes. In many jurisdictions, the codes are 10 
or more years old, and do not reflect current energy and water 
realities.
    To promote the adoption of current building, sustainability, 
electrical and life safety codes, ICC and the National Fire Protection 
Association (NFPA) founded the Coalition for Current Safety Codes 
(CCSC). Dozens of safety, environmental, and business organizations, as 
well as hundreds of individuals, have joined this coalition to remind 
states and local governments of the importance of regular code review.
    Federal support for the adoption of updated model codes, through 
both example and incentives, is essential for the safe implementation 
of water and energy conservation measures of various types, and the 
federal government should continue efforts to support the adoption of 
current codes. Federal agencies have long been leaders in adopting the 
latest codes and standards to assure long term sustainability and 
safety of Federal buildings, and that leadership should be supported 
and encouraged.
    Coordination between the codes is also of critical importance. When 
building, plumbing, mechanical, energy and green codes are designed to 
work together seamlessly; the greatest opportunity to support water and 
energy savings in the built environment is realized. For this reason, 
ICC promulgates a coordinated family of codes that ensure that 
provisions impacting energy or water are coordinated. This is the best 
way to avoid unintended negative consequences to water or energy-
related codes, and to take advantage of positive interactions between 
disciplines.
    The IgCC, a new model code first issued as a 2012 edition, takes 
the water/energy relationship one step farther than traditional model 
codes, and seeks to balance the interactions between all elements of 
sustainability in a building. Developed in partnership with the 
American Institute of Architects and ASTM International, it features 
the ASHRAE/USGBC/IESNA 189.1 standard as an alternate compliance path. 
This model code takes a balanced approach to sustainability, and ICC 
recommends it as a framework for sustainability in federal facilities 
and future legislation.
Energy Recovery from Wastewater
    The final category in the energy/water relationship involves the 
recovery of energy from wastewater streams. Here, thermal and nutrient 
energy contained within wastewater is treated as a resource to be 
utilized, rather than waste alone. At the point of use, drainwater heat 
recovery can be used to recover thermal energy in wastewater to preheat 
incoming water. Nutrients and chemicals in wastewater streams can be 
mined using various technologies to extract energy in various forms. 
This practice has already become common at wastewater treatment plants 
where the energy is used to power plant operations. New research and 
technologies aim to move that energy recovery closer to the waste 
source.
    Unique among green building rating systems and model codes, the 
IgCC addresses the emerging technologies associated with energy from 
wastewater, and provides for tools to measure such energy
    In summary

  <bullet> Promoting water efficiency for all users of public service 
        water reduces pumping and treatment energy use and directly 
        reduces energy use at the point of use.
  <bullet> Modern, coordinated building codes are a vital means of 
        reducing both energy and water consumption that is immediately 
        available. These codes are essential to ensure that new 
        technologies and systems are implemented in a safe and balanced 
        manner. Federal efforts to encourage states to update codes can 
        produce measurable savings.
                                 ______
                                 
     Statement of Plumbing Manufacturers International, Meadows, IL
    On behalf of Plumbing Manufacturers International (PMI), we 
appreciate the opportunity to submit our written statement for the 
record to the Senate Energy and Natural Resources Subcommittee on Water 
and Power's recent hearing on July 25, 2012 regarding the critically 
important issue of water use, water efficiency and the impact water 
efficiency has upon our country's overall energy use from the 
perspective of plumbing products manufacturers.
    PMI is the leading national and technical trade association of 
plumbing products manufacturers in the United States. Our 31 
manufacturers and allied members are responsible for at least 80 
percent of all the plumbing fixtures and fittings sold in the U.S. The 
majority of PMI member companies operates manufacturing facilities in 
the U.S. and produces a wide range of from sinks, toilets, and urinals 
to bathroom and kitchen faucets, showerheads, drinking fountains, 
garbage dispos*als, as well as a variety of fixtures.
Water-Efficient Plumbing Fixtures Reduce Water Consumption Levels & 
        Wastewater Flows
    It takes a considerable amount of energy to deliver and treat the 
water we use every day. Heating water for bathing, shaving, cooking, 
and cleaning also requires a lot of energy. With over half of all 
indoor residen*tial water use taking place in bathrooms and kitchens, 
improved water efficiency in plumbing products is central to our 
nation's water conservation efforts. Studies continue to show that the 
use of water-efficient plumbing products is effective in saving water.
    PMI and its member companies are committed to protecting the future 
of our national and local water supplies through water-efficient 
plumbing products and practices. Efficient plumbing products help 
consumers and communities hold down the rising costs of additional 
water supply and wastewater treatment infrastructure. Saving water also 
reduces the energy required to pump, heat, and treat water throughout 
the nation. Furthermore, using water more efficiently helps maintain 
water supplies at safe levels, and protects human health and the 
environment. Plumbing manufacturers are doing their part to improve 
water efficiency not only in their own manufacturing operations, but by 
producing an extensive number of water efficient plumbing products 
which are easily found in retail locations across the country.
Growth of Water Efficient Plumbing Products & U.S. EPA's WaterSense 
        Program
    Our commitment to water efficiency is evident in our industry's 
partnership with the U.S. Environmental Protection Agency's (EPA) 
WaterSense Program. This voluntary program, launched in 2006, promotes 
water efficient plumbing products and today brings to market over 4,000 
water-efficient plumbing products from high efficiency toilets, 
bathroom sink faucets to showerheads and urinals. These prod*ucts have 
been consumer tested and reduce water consumption by up to 30 
percent.\1\
---------------------------------------------------------------------------
    \1\ Products that seek the WaterSense label must: be water-
efficient, using at least 20 percent less water than EPA's fixture-
specific water use baseline-U.S. EPA Office of Wastewater Management- 
http://www.epa.gov/watersense/about__us/watersense__label.html
---------------------------------------------------------------------------
    PMI and its members have worked diligently with the EPA WaterSense 
Program over the past several years to develop voluntary product 
specifications for water efficient products. An open public process has 
brought together the EPA, water efficiency experts, standards 
developers, plumbers, and PMI member manufacturers to consider and 
balance the range of technical and performance issues unique to each 
product. When a manufacturer makes a product that meets those 
specifications, the product is eligible for third-party testing to 
ensure the stated efficiency and performance criteria have been met. If 
the product passes the test, the manufacturer is rewarded with the 
right to put the WaterSense label on that product.
    For companies to use the label, they must sign a WaterSense 
partnership agreement. Among other things, the partnership agreement 
defines the roles and responsibilities of EPA and the partnering 
organization, as well as proper use of the label on products, on 
packaging, and in marketing and other promotional materials.
    WaterSense now makes it easy for consumers, as well as builders and 
plumbers, to find and select water efficient products with a label 
backed by third party, independent, testing and certification. In fact, 
the majority of our member companies produce products that display the 
WaterSense label.
Rebates for Water-Efficient Plumbing Products
    Some communities have water conservation plans in place that often 
include residential rebates for products that reduce water use to 
encourage the installation of low-flow fixtures which typically include 
toilets, showerheads and bathroom faucets. How you obtain that rebate 
varies from jurisdiction to jurisdiction. Some areas give away free 
products, others give the money up front and, in a majority of cases, 
others require proof of purchase. There are also eligibility 
requirements and limits on the types of products. In addition to 
products, some utilities offer free services. For instance, several 
communities offer a free water-saving audit.
Consumer Outreach
    PMI has developed and maintains a consumer-focused website, 
www.safeplumbing.org, featuring important facts and guidance on clean 
water, water efficiency, and health and safety in plumbing fixtures and 
systems. In addition, our member companies have collaborated with EPA 
through national ``Fix- A-Leak'' Week and ``We're For Water'' events to 
drive awareness of repairing leaks and new water-efficient products on 
the market. Specifically, PMI and its member companies have been 
actively involved in a variety of public education campaigns 
including--WaterSense Fix-a- Leak Week--typically held in March. 
Dripping faucets can waste up to two thousand gallons of water each 
year in the average home. Leaky toilets can waste as much as two 
hundred gallons per day.
America's Water Infrastructure Challenge
    High-quality drinking water and wastewater systems are essential to 
public health, manufacturers, business, and quality of life in the U.S. 
Much of our drinking water infrastructure, the more than one million 
miles of pipes beneath our streets, is nearing the end of its useful 
life and approaching the age at which it needs to be replaced. Water 
pipes are leaking and bursting with alarming frequency as the nation's 
plumbing infrastructure ages. Moreover, our shifting population brings 
significant growth to some areas of the country, requiring larger pipe 
networks to provide water service.
    The American Water Works Association (AWWA) and other organizations 
have documented that our water and wastewater infrastructure is aging 
and that many communities must significantly increase their levels of 
investment in its repair and rehabilitation to protect public health 
and safety and to maintain environmental standards.
    According to a recent study by the AWWA\2\ , the cost of repairing 
and expanding the drinking water infrastructure will top $1 trillion in 
the next 25 years and $1.7 trillion over 40 years. As a nation, we need 
to have serious conversations at the federal, state and local levels 
about the funding required to repair our aging water infrastructure. 
Deferring needed investments today will only result in greater expenses 
tomorrow. As manufacturers of critical plumbing products that rely on 
clean water coming from the tap, this is a critical issue facing our 
industry and consumers. The longer we wait to make needed repairs and 
upgrades, the more acute these problems become and the higher the costs 
to American families and businesses.
---------------------------------------------------------------------------
    \2\ Buried No Longer: Confronting America's Water Infrastructure 
Challenge, American Water Works Association, Feb. 27, 2012-
www.awwa.org/files/GovtPublicAffairs/GADocuments/
BuriedNoLongerCompleteFinal.pdf.
---------------------------------------------------------------------------
Critical Plumbing Products Research
    PMI supports research currently underway to discern future 
efficiency levels, balanced against the ``tipping point'' at which 
plumbing products no longer protect the health and safety of consumers. 
In fact, PMI is currently part of the Plumbing Research Efficiency 
Coalition (PERC) which is undertaking a building drainline research 
study that will analyze the potential for blockages resulting from the 
use of reduced flow water closets in commercial buildings and evaluate 
the use of higher volume flush valve discharges at intermittent 
intervals as a way to effectively clear drainlines.
    The PERC research is intended to answer important questions about 
product performance and design considerations at lower flow rates. Once 
the research is complete, product/water efficiency questions will be 
able to be answered with facts and research data. We may, in fact, be 
at the practical limits of efficiency and any further reductions in 
efficiency levels in some consumer plumbing products, specifically 
toilets and showerheads, need to be based on scientific study in order 
to ensure continued efficacy and safety in addition to increased levels 
of water and energy efficiency.
    The funding for this study took years to secure and came from code 
organizations, a variety of trade associations, including PMI, 
individual plumbing manufacturing companies and NGOs. Unfortunately, 
the federal agencies declined to support this critical PERC research. 
In the future, the federal government should be involved in the 
development of key research programs and provide some financial support 
for scientific study to ensure that increasingly precious water 
supplies are used as efficiently as possible in buildings and homes, 
while maintaining health and safety.
    EPA's WaterSense program is an essential element in the development 
of a water focused benchmarking initiative, but focuses on individual 
plumbing products and not the use of water throughout commercial 
buildings.
Conclusion
    PMI member companies are committed to designing and producing 
water-efficient products, without sacrificing performance. We 
understand the importance of both water conservation and energy 
reduction. Our association and its members continue to raise the bar in 
developing the most advanced water efficient plumbing products and 
further our commitment to preserving our environment. Our efforts will 
help ensure reliable water supplies today and for future generations.
    We look forward to working with the committee in the 113th Congress 
to further discuss the important nexus of water efficient plumbing 
products and its impact on energy use. In the meantime, if you have any 
questions regarding our statement, contact Barbara Higgens, Executive 
Director, Plumbing Manufacturers International.

                                    

      

</pre></body></html>
